<html>
<title> - IT PROCUREMENT AND DISPOSAL: APPLICATION OF THE FEDERAL GOVERNMENT'S GREEN POLICIES IN THE LIFE CYCLE MANAGEMENT OF IT ASSETS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
 IT PROCUREMENT AND DISPOSAL: APPLICATION OF THE FEDERAL GOVERNMENT'S 
        GREEN POLICIES IN THE LIFE CYCLE MANAGEMENT OF IT ASSETS 

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON GOVERNMENT MANAGEMENT,
                     ORGANIZATION, AND PROCUREMENT

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 27, 2009

                               __________

                           Serial No. 111-62

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

57-623 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 
















              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                   EDOLPHUS TOWNS, New York, Chairman
PAUL E. KANJORSKI, Pennsylvania      DARRELL E. ISSA, California
CAROLYN B. MALONEY, New York         DAN BURTON, Indiana
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
JOHN F. TIERNEY, Massachusetts       JOHN J. DUNCAN, Jr., Tennessee
WM. LACY CLAY, Missouri              MICHAEL R. TURNER, Ohio
DIANE E. WATSON, California          LYNN A. WESTMORELAND, Georgia
STEPHEN F. LYNCH, Massachusetts      PATRICK T. McHENRY, North Carolina
JIM COOPER, Tennessee                BRIAN P. BILBRAY, California
GERALD E. CONNOLLY, Virginia         JIM JORDAN, Ohio
MIKE QUIGLEY, Illinois               JEFF FLAKE, Arizona
MARCY KAPTUR, Ohio                   JEFF FORTENBERRY, Nebraska
ELEANOR HOLMES NORTON, District of   JASON CHAFFETZ, Utah
    Columbia                         AARON SCHOCK, Illinois
PATRICK J. KENNEDY, Rhode Island     BLAINE LUETKEMEYER, Missouri
DANNY K. DAVIS, Illinois             ANH ``JOSEPH'' CAO, Louisiana
CHRIS VAN HOLLEN, Maryland
HENRY CUELLAR, Texas
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
PETER WELCH, Vermont
BILL FOSTER, Illinois
JACKIE SPEIER, California
STEVE DRIEHAUS, Ohio
JUDY CHU, California

                      Ron Stroman, Staff Director
                Michael McCarthy, Deputy Staff Director
                      Carla Hultberg, Chief Clerk
                  Larry Brady, Minority Staff Director

  Subcommittee on Government Management, Organization, and Procurement

                 DIANE E. WATSON, California, Chairman
PAUL E. KANJORSKI, Pennsylvania      BRIAN P. BILBRAY, California
JIM COOPER, Tennessee                AARON SCHOCK, Illinois
GERALD E. CONNOLLY, Virginia         JOHN J. DUNCAN, Jr., Tennessee
HENRY CUELLAR, Texas                 JEFF FLAKE, Arizona
JACKIE SPEIER, California            BLAINE LUETKEMEYER, Missouri
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
MIKE QUIGLEY, Illinois
                      Bert Hammond, Staff Director





















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 27, 2009.................................     1
Statement of:
    Biddle, Michael, president and founder, MBA Polymers; Gilbert 
      Casellas, vice president, corporate responsibility and 
      chief diversity officer, Dell, Inc.; Rick Goss, vice 
      president, environment and sustainability, Information 
      Technology Industry Council; Rich Littlehale, chief 
      executive officer, YOURENEW.com; and Jeff Omelchuck, GEC 
      director and EPEAT executive director, Green Electronics 
      Council....................................................    63
        Biddle, Michael..........................................    63
        Casellas, Gilbert........................................    73
        Goss, Rick...............................................    83
        Littlehale, Rich.........................................    98
        Omelchuck, Jeff..........................................   105
    Jones, James, Principal Deputy Administrator, Office of 
      Prevention, Pesticides and Toxics, U.S. Environmental 
      Protection Agency; John Stephenson, Director, Natural 
      Resources and Environment, Government Accountability 
      Office; and Casey Coleman, Chief Information Officer, U.S. 
      General Services Administration............................    19
        Coleman, Casey...........................................    47
        Jones, James.............................................    19
        Stephenson, John.........................................    30
    Thompson, Hon. Mike, a Representative in Congress from the 
      State of California; and Hon. Gene Green, a Representative 
      in Congress from the State of Texas........................     3
        Green, Hon. Gene.........................................     8
        Thompson, Hon. Mike......................................     3
Letters, statements, etc., submitted for the record by:
    Biddle, Michael, president and founder, MBA Polymers, 
      prepared statement of......................................    66
    Casellas, Gilbert, vice president, corporate responsibility 
      and chief diversity officer, Dell, Inc., prepared statement 
      of.........................................................    75
    Coleman, Casey, Chief Information Officer, U.S. General 
      Services Administration, prepared statement of.............    48
    Goss, Rick, vice president, environment and sustainability, 
      Information Technology Industry Council, prepared statement 
      of.........................................................    86
    Green, Hon. Gene, a Representative in Congress from the State 
      of Texas, prepared statement of............................    10
    Jones, James, Principal Deputy Administrator, Office of 
      Prevention, Pesticides and Toxics, U.S. Environmental 
      Protection Agency, prepared statement of...................    21
    Littlehale, Rich, chief executive officer, YOURENEW.com, 
      prepared statement of......................................   100
    Omelchuck, Jeff, GEC director and EPEAT executive director, 
      Green Electronics Council, prepared statement of...........   107
    Stephenson, John, Director, Natural Resources and 
      Environment, Government Accountability Office, prepared 
      statement of...............................................    32
    Thompson, Hon. Mike, a Representative in Congress from the 
      State of California, prepared statement of.................     6


 IT PROCUREMENT AND DISPOSAL: APPLICATION OF THE FEDERAL GOVERNMENT'S 
        GREEN POLICIES IN THE LIFE CYCLE MANAGEMENT OF IT ASSETS

                              ----------                              


                       TUESDAY, OCTOBER 27, 2009

                  House of Representatives,
            Subcommittee on Government Management, 
                     Organization, and Procurement,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:30 a.m. in 
room 2154, Rayburn House Office Building, Hon. Diane E. Watson 
(chairwoman of the subcommittee) presiding.
    Present: Representatives Watson, Bilbray, Connolly, 
Cuellar, Quigley, and Luetkemeyer.
    Staff present: Bert Hammond, staff director; Valerie Van 
Buren, clerk; Adam Bordes and Deborah Mack, professional staff; 
Adam Fromm, minority chief clerk and Member liaison; Kurt 
Bardella, minority press secretary; Stephen Castor, minority 
senior counsel; and Ashley Callen, minority counsel.
    Ms. Watson. The Committee on Oversight and Government 
Reform's Subcommittee on Government Management, Organization, 
and Procurement will come to order.
    Without objection, the Chair and the ranking minority 
member will have 5 minutes to make opening statements, followed 
by opening statements not to exceed 3 minutes by any other 
Member who seeks recognition.
    Without objection, Members and witnesses may have 5 
legislative days to submit a written statement or extraneous 
materials for the record.
    Now, today the subcommittee will hear from Members of 
Congress and Government and industry representatives about the 
U.S. Government's various program's designed to promote the 
purchase of environmentally preferable IT products and the 
responsible recycling and disposal of IT equipment at the end 
of the product's life cycle.
    The U.S. Government spends in excess of $70 billion 
annually on IT investments and disposes of more than 500,000 
computers annually, or approximately 10,000 units each week. By 
default, it plays a pivotal role in shaping the IT marketplace.
    This subcommittee is particularly interested in learning 
about what Government-wide policies and programs are now in 
place to promote the purchase of IT energy efficient products, 
the use of recycled and other environmentally friendly 
materials in the manufacture of the new IT products, and the 
responsible disposal and recycling of the end-of-life-cycle IT 
assets.
    The subcommittee is also interested in learning to what 
extent mandated U.S. Government green initiatives are being 
implemented by various agencies, as well as the level of 
interagency coordination and cooperation in the management and 
disposal of Government IT assets.
    By way of example, Executive Order 13423 executed in the 
year 2007 requires that at least 95 percent of the agency's 
acquisition of IT and other electronic assets be registered, if 
available, with the Electronic Product Environmental Assessment 
Tool [EPEAT], which was developed with a grant from the 
Environmental Protection Agency in 2006 and is managed by the 
Green Electronics Council.
    EPEAT-registered products, which include desktops, laptops, 
and printers, must meet requirements for energy conservation, 
materials, and life cycle management.
    Earlier this month, President Obama issued Executive Order 
13514, which focuses on improving the Federal Government's 
environmental, energy, and economic performance and also 
mandates agency procurement preferences for EPEAT. But 
according to press reports, only 13 Federal agencies, including 
the GSA and EPA, comply with the EPEAT requirement in 2008, 
which accounts for roughly a quarter of IT procurement 
spending.
    While the Government's recycling and disposal programs have 
strong attributes, I am concerned that many of the programs are 
voluntary and not sufficiently integrated into the agencies' 
core mission. The absence of a clear set of standards and 
policies is perhaps most evident with the ad hoc treatment of 
electronic waste or e-waste, and the fact that national 
standards for the disposal of electronic products are lacking.
    One must question the efficacy of the Government's green 
programs currently in place if we continue to fail to develop a 
national policy on the reclamation, recycling, and responsible 
disposal of IT assets.
    So I look forward to both an informative and informational 
discussion of an issue that undoubtedly will grow in importance 
as the responsible and effective functioning of Government 
becomes increasingly dependent on and tied to the efficient 
management of its IT assets.
    I thank all the witnesses for appearing before the 
committee today and look forward to their testimony.
    I will now yield to our distinguished ranking member, Mr. 
Bilbray of California.
    Mr. Bilbray. Thank you, Madam Chair. I would apologize for 
my tardiness and in repentance I will just ask the unanimous 
consent that my written statement be included into the record.
    Ms. Watson. Without objection.
    Mr. Bilbray. I would just like to thank the witnesses. 
Again, I apologize for my lack of promptness.
    Ms. Watson. All right. If there are any Members that would 
like to have opening statements, we will give you 3 minutes. 
Mr. Cuellar.
    Mr. Cuellar. Thank you, Madam Chair.
    First of all, I want to thank you for holding this meeting. 
I want to thank our colleagues, Representative Thompson and 
Representative Green. Very appropriate last name, Green, green 
programs. I will be leaving because I have to go chair a 
committee in Homeland, so I will be leaving in a couple of 
minutes.
    The only thing I do want to emphasize, Madam Chair and 
Members, is that when you look at the emergent issues, one of 
them is the lack of uniform standards, which is the 
performance. What are the objectives? What are the goals? How 
do you indicate if you are meeting those goals or not? So I 
would like to emphasize that when we talk about emergent issues 
that uniformity or lack of uniformity is something that we 
would like to have.
    I would like to see the agencies where we can at least see 
what their objectives are, what their goals are, and how they 
are measuring those indicators. That is the point that I want 
to just emphasize as one of emergent issues that we are looking 
at.
    Ms. Watson. Thank you.
    Mr. Cuellar. Thank you, Madam Chair.
    Ms. Watson. Mr. Quigley.
    Mr. Quigley. Just to thank you for having this meeting. We 
will be submitting a written document for the record.
    Ms. Watson. Without objection.
    Mr. Quigley. Thank you.
    Ms. Watson. There are no other opening statements. We will 
now go to our first panel.
    I will now introduce the first panel. I would like to 
recognize Representative Mike Thompson. He has representing 
California's First Congressional District since 1998. He is a 
member of the House Committee on Ways and Means and the House 
Permanent Select Committee on Intelligence. Congressman 
Thompson also formed the E-Waste Working Group to develop a 
national approach to adequately dispose of e-waste.
    Congressman Gene Green has represented the 29th 
Congressional District of Texas since 1992. He serves on the 
House Energy and Commerce Committee and on the House Committee 
on Foreign Affairs. Congressman Green is also a co-sponsor of 
H.R. 2595 to restrict certain exports of electronic waste.
    I ask that each of the witnesses now give a brief summary 
of their testimony and to keep this summary under 5 minutes in 
duration, if possible. Your complete written statements will be 
included in the hearing record.
    Congressman Thompson, would you please proceed.

STATEMENTS OF HON. MIKE THOMPSON, A REPRESENTATIVE IN CONGRESS 
     FROM THE STATE OF CALIFORNIA; AND HON. GENE GREEN, A 
       REPRESENTATIVE IN CONGRESS FROM THE STATE OF TEXAS

                STATEMENT OF HON. MIKE THOMPSON

    Mr. Thompson. Thank you, Madam Chair and Ranking Member 
Bilbray and other members of the committee. I really appreciate 
the fact that you have taken this issue on and are holding this 
hearing.
    Congresswoman Watson, your mention of current programs, 
many of them being voluntary and not having something that 
incorporates into our everyday practice of Government is 
absolutely on point and something I think we all need to be 
working toward fixing.
    My interest in this subject goes back to when I was first 
elected to Congress. As you mentioned, I started the group, but 
I have been involved in this for quite some time now. AS we all 
know, because of the technological advances in electronic 
equipment, things are getting better, they are getting smaller, 
there is more bells and whistles. This is great for consumers, 
but on the other end of it we have products that have about a 
2-year life expectancy, which means there is a heck of a lot of 
e-waste at the end of the day.
    In the 111th Congress I have been working with my friend 
and colleague, Congressman Gene Green, on this legislation that 
you mentioned that would disallow the export of U.S. e-waste to 
any country that does not have high environmental standards. As 
I mentioned, there is a lot of it. We just sponsored a Capitol 
Hill e-waste collection day during the--I think it was the 
summer break. We had somewhere around 200 staffers who brought 
their e-waste in to be appropriately recycled or reused, so 
there is a tremendous amount of it there, and it should not be 
going overseas in a way that is irresponsible either 
environmentally irresponsible or morally irresponsible.
    If you look at some of the recent TV investigatory pieces 
on what happens to e-waste, you know that they burn this stuff 
in open air pits to get the plastic and the coating on the wire 
out of the mix so they can salvage the valuable components. 
They have kids picking through this stuff, handling toxic 
materials to get these valuable components. And the areas where 
they are doing this--and most recently it was pointed out in 
Ghana, China, and Indonesia, some of the big offenders. The 
population, the people that are working there have all kinds of 
very serious skin diseases, respiratory problems throughout the 
entire community because of this open air burning. This has to 
stop. I think our legislation is the first step toward putting 
an end to this immoral behavior.
    I am on the Intelligence Committee and chair a 
subcommittee, and I am very concerned about Government 
computers getting into the wrong hands. Again, some of these TV 
reporting entities have found examples. I have a picture of one 
of those that I would like to submit to you, Madam Chair, for 
the record.
    The last thing we need are unfriendly foreign countries 
getting information as to how we do our business, intelligence 
or otherwise, here in this country.
    In the Intelligence authorization bill for 2010, I was able 
to get an amendment in that requires a threat assessment report 
on the security of e-waste disposal of Federal property that is 
assigned to the U.S. intelligence community. These items just 
have a great potential of getting into the wrong hands and 
causing us a great deal of problems.
    The EPA has estimated that the Federal Government discards 
some 10,000 computers every week, so we really need that 
national framework to better manage this. In the absence of 
that, I believe that our Federal Government and our Congress 
needs to lead by example, not only help us get to that national 
framework, but while we are traveling to that point we need to 
do it right here.
    In 2005 I had a concurrent resolution to get Congress and 
other legislative branch offices to work together to establish 
and implement a coordinated program for the reuse, recycling, 
and appropriate disposal of e-waste by offices of the 
legislative branch. I think that is an important effort and I 
am going to reintroduce that bill in the next couple of days, 
and I hope that I would be able to garner some support from 
this committee and others who may be watching your hearing and 
paying attention to your important work.
    So I thank you again for bringing this to a much greater 
national audience. This is something we really need to get 
ahead of and get control of, and I look forward to working with 
you and this committee to make sure that happens.
    I yield back the remainder of my time.
    [The prepared statement of Hon. Mike Thompson follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Watson. Thank you, Mr. Thompson, for your diligence and 
your concern and the work your subcommittee is doing. We 
appreciate it.
    Congressman Green, would you please proceed?

                  STATEMENT OF HON. GENE GREEN

    Mr. Green. Thank you, Madam Chairwoman and Ranking Member 
Bilbray for holding the hearing to look into, among other 
issues, the Government's end-of-life electronic waste 
management. It is an honor to be here to testify on the bill 
that myself and our staffs have spent countless hours, along 
with my colleague, Mike Thompson, on an issue we have been 
continuing to work to address.
    My real interest in the issue comes from working on and 
chairing the now-defunct subcommittee of the Energy and 
Commerce Committee. We started with an e-waste working group to 
put forward principles and try to develop legislation to stem 
the export of electronic waste to countries and facilities that 
are disposing of the waste in ways that are extremely harmful 
to the environment and to human health.
    Last summer I became chair of that subcommittee and made it 
one of top priorities in moving the issue forward. Shortly 
after that, we introduced H. Res. 1395 expressing concern over 
the current Federal policy that allows the exportation of toxic 
electronic waste to developing countries and expressed the 
sense of the House that the United States should join other 
developed nations and ban the export of toxic electronic waste 
to developing nations.
    We also began working immediately on legislation that would 
ban the export of these products to developing countries that 
do not have the facilities to properly and safely handle this 
waste. What was produced is H.R. 2595, which amends the Solid 
Waste Disposal Act to do just that. While we are still working 
to strengthen language to ensure it cannot be manipulated 
broadly, it only allows export of products that we track 
through the refurbishment process back to the marketplace to 
prevent abuse.
    H.R. 2595 sets the framework for this, and we are now 
working with various stakeholders to ensure the language is 
strong enough and provides enough transparency to ensure that 
it cannot be circumvented. We are also trying to address a 
current problem where much of the e-waste collected in the 
United States and exported for allegedly recycling or reuse is 
actually exported to developing countries such as China, Ghana, 
India, Nigeria, Pakistan, and Thailand for unsafe salvage and 
metals recovery.
    There have been numerous reports and stories of toxic e-
waste being burned in open fires with no safety equipment and 
often by children, and creating extremely toxic conditions. The 
fact that our electronic products are scrapped by children in 
developing countries using open fires and acid baths is a 
disgrace. We wouldn't want to import other peoples' hazardous 
waste, so we shouldn't send ours overseas.
    These conditions have been documented in the film Exporting 
Harm and Digital Dump, National Geographic Magazine, 60 
Minutes, and even a CSI New York had a segment on it about a 
year ago, and many other media and government sources, 
including a GAO report released just over a year ago.
    I am pleased Director Stephenson of the GAO Office of 
Natural Resources and Environment is on the next panel, and I'm 
sure he will discuss the report in more depth. Briefly, the GAO 
report that was released last September identified that Customs 
Border Protection already has a framework in place that could 
help EPA obtain data and improve oversight of exporting used 
electronics. It has also stated the agency's automated tracking 
systems electronically store information from shippers, export 
declaration forms, which include tariff codes, and that adding 
more detailed codes to the schedule could assist other 
countries in controlling used electronics exported from the 
United States.
    Our legislation will attempt to build on this by directing 
the EPA to work with necessary agencies, including Customs and 
Border Protection, to set up a system to accomplish this while 
detailing what products can be exported and for what purpose. 
It is important to note there are currently no Federal laws in 
place to prevent the export of this waste.
    H.R. 2595 includes strong protections that would make abuse 
of the export provisions illegal, costly, and unlikely, as well 
as providing complete transparency on where the exports are 
going. These protections demand that an export is only 
permitted if the competent authorities of the importing country 
certify annually in writing to the United States that such 
items intended for refurbishment are permitted by that 
country's laws and policy. If the competent authority of a 
country does not exist then the export to that country by 
companies within the United States would be banned.
    Companies wishing to export must certify annually to the 
U.S. Government the export of such items is intended for 
refurbishment. False certifications would result in criminal 
violations and penalties under the Resource Conservation and 
Recovery Act [RCRA]. Companies wishing to export must also 
further notify the EPA of the name and contact information of 
the exporter, the name and the contact information of the 
importer at the receiving facility, and the type of used 
electronic equipment or parts that will be shipped, and must 
also keep copies of normal business records such as contracts 
demonstrating that each shipment of items was intended for 
refurbishment. The collection of such records will be critical 
to investigations of companies who are suspected of abusing 
provisions allowing for limited exports.
    Finally, items exported for the purpose of refurbishment 
must be packaged according to standards which the legislation 
directs EPA to develop to prevent loss of functionality due to 
damage during transit. Such packaging environments would 
constitute significant cost to the companies wishing to export 
such items.
    Madam Chair, I want to thank you again I want to thank you 
again for holding the hearing on the electronic life cycle and 
the role our Government's IT practice plays in it. It is an 
extremely important issue for our Nation to address.
    Again, I want to thank Congressman Thompson for his 
leadership on the issue and thank you for the opportunity to 
testify.
    [The prepared statement of Mr. Green follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Watson. Thank you, Congressman Green and Congressman 
Thompson, for taking your time to make statements.
    I would like to call on Mr. Connolly if he has a statement 
to make.
    Mr. Connolly. Thank you, Chairwoman Watson, and thank you 
for holding this hearing on green procurement practices for the 
Federal Government.
    This is an exciting time to be dealing with this topic, as 
we have unprecedented technological expertise, interest, and 
environmental leadership at the Executive level. By working 
together, I am confident we can advance an aggressive agenda 
for the Federal Government to set the highest standard in 
stewardship in the area of procurement.
    I also want to thank our colleagues for their leadership, 
Congressman Thompson and Congressman Green, very powerful 
testimony this morning.
    Congressman Kendrick Meek has also introduced legislation 
of which I am a co-sponsor, H.R. 1766, which would open GSA's 
supply schedules to local and State governments for purchases 
of green products. Since State and local governments have 
cumulative purchasing power in excess of $2 trillion, giving 
them access to GSA's supply schedules would increase demand and 
drive down the prices Federal agencies pay for these green 
products. Small businesses make up 80 percent of the 
participants in the GSA supply schedule, so giving local and 
State governments access to that schedule will also help those 
small businesses.
    I am submitting testimony from Fairfax County staff, my 
District, Madam Chairwoman, for the record. As their written 
statement explains, this legislation would help localities 
across the country move forward with their green purchasing 
initiatives, and as an example of the kind of local and Federal 
partnership we should seek to create.
    The National Association of Counties and the National 
Government Purchasing Association have also endorsed H.R. 1766, 
because it would help counties like mine that wish to green 
their procurement practices. I hope this subcommittee has an 
opportunity to mark up H.R. 1766 in the not so distant future.
    I applaud the representatives of the private sector who are 
here today as well, Madam Chairwoman, who are leading by 
example. In recent years there has been extensive news coverage 
of electronic waste being shipped overseas and dismantled in 
highly dangerous conditions for workers, as we have heard from 
our colleagues this morning. I was pleased to learn about 
Dell's initiative to prevent export of electronic waste that 
would be processed in unsafe, environmentally destructive 
manner.
    I hope that we can strive to achieve these objectives, at a 
minimum. First, let's agree to mark up H.R. 1766, which would 
be a boon for local and State governments involved in green 
procurement. Second, to followup on the testimony we have heard 
from our colleagues, Representative Green and Representative 
Thompson, we should identify the next steps to prevent the 
Federal Government from shipping e-waste overseas. If there is 
an administrative solution, then we should monitor its 
implementation. If it requires legislation, then we should 
develop and pass such legislation. Third, I would hope we could 
identify private sector best practices that could apply to the 
Federal Government. It sounds like we have a lot to learn.
    Finally, based on private sector testimony, it would be 
worthwhile to learn more about what could be a framework for 
broader e-waste legislation that would address production, 
recovery, and recycling of e-waste. Since companies like Dell 
already are doing much of this, we should try to find out what 
a reasonable baseline for e-waste recovery and recycling 
economy might be.
    Again, I want to thank you, Madam Chairwoman, for holding 
this hearing, and I thank our colleagues for their thoughtful 
testimony.
    Ms. Watson. Thank you, Mr. Connolly.
    Before I go to our ranking member, Congressman Thompson, 
you said something about the computers and the e-waste. Is it 
possible that information could be pulled up out of our 
computer waste? Can you expand on that? When we get rid of a 
computer, is it still active? Can they still gain information 
from it?
    Mr. Thompson. We have to be very careful as to how those 
are disposed of, and the Federal Government uses different 
processes for the disposal of the equipment. Oftentimes, 
computers are bundled and sold to salvage individuals and they 
will go through and maybe there will be some working computers 
amongst that group and they will pull those out and reuse them. 
The others oftentimes are sent abroad, as we both testified.
    We just need to make very clear that there should be 
nothing--we cannot allow anything to be left on these computers 
that can be obtained by folks who want to do us harm 
economically or from a national security perspective. That is 
why we put the provision in the intel bill to make sure this 
wasn't a huge problem.
    Some of the news shows--Congressman Green listed the ones 
that have done reporting on this subject--have actually found 
U.S. surplus equipment overseas in these facilities that we 
talked about, and if any of those do have information, 
sensitive information, we want to make sure that practice 
doesn't continue.
    Ms. Watson. Congressman Green.
    Mr. Green. Thank you, Madam Chair.
    I guess my concern is when we dispose of our own computers, 
because our personal information is on there. Obviously, as a 
country we don't want someone having our intelligence 
information or our information, but as individuals, when we 
dispose of our computers we want to make sure that our personal 
information is not on that, and it very well can be unless it 
is disposed of properly. That is our concern, although our 
legislation only deals with the export of it, because that is 
such a huge industry and we know from the publicity in both the 
news shows and other things how terrible it is in other parts 
of the world, that they are actually taking our waste and 
injuring themselves for it, and so that is what we want to 
control. I appreciate your having the hearing today.
    Ms. Watson. Thank you so much.
    I now call on our ranking member, Mr. Bilbray.
    Mr. Bilbray. Madam Chair, just to echo what the gentlemen 
were talking about. I think you will remember there was a 
degree of concern when then Vice President Gore thought that 
investigators could not pull up his e-mail because he had 
erased them, but the fact is that it was embedded in the 
machine, itself. And so that trail does run with the hardware.
    Congressman Thompson, your concern about your bill 
specifically keeping us from exporting into Third World 
countries, or areas with less environmental standards than we 
may think is appropriate, now, does that address the issue of 
Californians sending our waste to Texas? [Laughter.]
    I have just got to say frankly, though, as Californians----
    Mr. Thompson. I'm trying to work with this guy on this 
bill.
    Mr. Bilbray. I almost want to tell my colleague that 
calling Green was, in fact, a reminder that Mr. Green is an oil 
man or, you know, comes from one of the largest natural gas 
producers in the world. But I do worry about when we talk about 
this issue of where we are going. I think one of the things 
that we try to do in this committee is look at the fact of not 
just waste, but how do we sort of preempt it by going to pre-
engineered hardware that is designed to reuse the equipment so 
that there is elimination of the waste problem but also the new 
material for future.
    My biggest concern is this, and I think there are two of us 
here who have actually managed a waste stream and been 
responsible for it for millions of people: as we talk about 
making sure it doesn't leave the country, Californians are 
probably one of the worst culprits of this except for New York. 
New York is by far the worst of let's send our waste to 
somebody else.
    Are we discussing at all at Energy and Commerce, my old 
haunts with you, Mr. Green, about the fact of what are we doing 
to require regions and areas to start siting the facilities, 
because it seems always so easy to stop a recycling facility 
from being sited, and stop people from being able to ship, but 
we don't find answers in the line. Have you guys even discussed 
the aspect of, if we stop the export--which we should--what are 
we doing proactively to site recycling facilities within the 
country?
    Mr. Thompson. Let me just say there are a number of 
recycling facilities not only in our country, but in our State 
of California. I work with one in my District in northern 
California. Every time I have an event for my campaign, I allow 
folks or make available to folks the opportunity to bring their 
old e-waste in, and I have a company that comes and collects 
it, and they refurbish it or recycle it in a responsible way.
    We did the same when we worked with House admin----
    Mr. Bilbray. So they are actually breaking out the 
components and reselling the material?
    Mr. Thompson. Correct, here in this particular company in 
California. But we did the same when we did the staff pickup 
day on the Hill this year. We worked closely with House admin 
to really vett the company that we were using. We didn't want 
to bring somebody in to collect all this e-waste and find out 
they are sending it to one of these countries that does it 
incorrectly. So the answer is yes, we do have these facilities 
here. There are companies that do it and do it right. We need 
to take some responsibility to make sure that we do the leg 
work necessary, run all the traps to make sure they are the 
appropriate company.
    Last, you mentioned the front-end engineering to make sure 
that these computers and electronic devices were more 
acceptable to recycling and reuse, and there is a lot of effort 
underway, and a lot of that is being done in the Science 
Committee by our colleague, Bart Gordon, who has taken a real 
keen interest in this and has been working I know with Gene and 
I not only on our issue, but----
    Mr. Bilbray. I know. As a member of that committee I am 
working with Bart with that, and we are trying to get the 
engineers basically to design the equipment up front to have 
recyclable products on here.
    Mr. Thompson. It is very important.
    Mr. Bilbray. And I think both of you gentlemen will agree 
that one of the biggest problems we have had historically with 
the term recycling, it means separation and collection, but 99 
percent of the material gets shipped to the Far East, to a 
Third World country.
    We don't recycle in this country hardly at all. We 
separate, we collect, and we send it off to somebody else to do 
it. I am glad to hear you talking about we are actually being 
proactive about that. And our State has been the worst about 
trying to be an ally at siting these industries and these 
businesses within our own jurisdiction and having the 
environmental regulations compatible to that kind of 
environmental strategy, and one of our greatest frustrations.
    Mr. Green.
    Mr. Green. Our country does have experience with the 
Resource Conservation and Recovery Act, which prohibits 
exportation of toxic materials. The best example I know is in 
northern California and in Texas and Virginia there is these 
old moth-balled fleet ships that at one time they thought they 
could export them to other countries that don't have our 
standards, but you can't.
    And so in northern California they actually have then 
cleaned those ships or they can ship to Brownsville, TX, or 
there is other yards on the east coast that will do it, because 
they can't export those to China although, again, it is a 
worldwide disaster what's happening to ships that are just run 
up on the banks in China, India, Bangladesh, and they build 
communities around taking apart that ship, and they have 
astronomically bigger problems than what we are dealing with.
    But we can do the same thing with electronic waste. I would 
love to have those pre-engineering so those parts can be 
recycled. The problem we have today is that a lot of groups, 
including cities who do recycling, they assume it is going to 
be recycled safely, but they are really putting it in a 
container and ship to China. Our legislation would prohibit 
that.
    I want us to develop the industry to deal with that 
ourselves, and we can do it in our country. We do it on lots of 
other things, and we can do it for electronic waste, because, 
again, that is a job base. My name is Green, but when we have 
the Green Blue Coalition, I'm more closer to the blue collar 
than I am to the green collar side. But in this way it can be a 
win for both, because we can have an industry that will recycle 
this and create jobs in our own country instead of devastating 
parts of the world.
    Mr. Bilbray. Yes. It is too bad that in a State that was 
one of the largest marine industries in the world we now have 
to ship our ships to Texas to be recycled because the 
infrastructure is so----
    Mr. Green. Congressman Solomon Ortiz, who represents 
Brownsville, is very happy that you are having to do that.
    Mr. Bilbray. OK. Thank you very much.
    I yield back, Madam Chair.
    Ms. Watson. Mr. Quigley.
    Mr. Quigley. No questions.
    Ms. Watson. OK. Mr. Luetkemeyer.
    Mr. Luetkemeyer. Thank you, Madam Chair. Just very quickly, 
I'm kind of interested to hear where will we dispose of 
computers that have sensitive information on it? Is there a 
protocol that we have for doing that? We mentioned a minute ago 
that some of this information is still on the hard drives. Is 
there not a protocol to keep that from happening?
    Mr. Thompson. There are protocols, and I think the second 
panel I believe there is witnesses that can speak specifically 
to that. It falls within their jurisdiction as to how that is 
to take place.
    Mr. Luetkemeyer. OK. And just another quick question with 
regards to disposal of these e-products here. Do we have 
anything in the contract when we purchase it from the supplier 
for them to buy back or to dispose of it themselves? Is there 
any incentive to do that, or do we just buy it from the 
supplier and then we are going to do the disposal ourselves?
    I mean, it looks like you could probably put something in 
there as a buy-back provision that would incent them to do 
something like we were just talking about, to develop 
recyclable type of materials so that if they knew they were 
going to have to buy it back they would be able to do this at a 
profitable scenario.
    Mr. Thompson. I'm not certain as to all of the different 
Government contracts and what they include or don't include, 
but I do know that there are certain computer companies that 
have provisions whereby you can return the old computer to that 
company. It is a good thing, but at the same time that has been 
one of the stumbling blocks, trying to figure out how we get 
our arms around the whole issue of recycling e-waste.
    Part of the problem we have right now is that you have 50 
different States all trying to deal with what the State process 
and the State laws are going to be regarding this issue, and we 
are trying to figure out--maybe not all, but one of my issues 
is trying to figure out how to make that happen across the 
entire country. And one of the stumbling blocks have been when 
you get all the stakeholders together everybody agrees that it 
is a problem we need to do something about, but like so many 
other things the details become difficult.
    There are some of the manufacturers who say, Wait, our 
hands are clean on this. We have a program internally where we 
bring this stuff back into our jurisdiction and do it.
    So the answer is yes, some of them are, some of them 
aren't, and what the specific Government contracts are probably 
differ between different parts of the Government.
    Mr. Luetkemeyer. It would seem to me that if you had a 
requirement in the contract that they would certainly either 
develop their own way of recycling or contract with somebody to 
do that, and it would solve some of our problems.
    I will yield back. Thank you, Madam Chair.
    Ms. Watson. I want to thank Congressman Thompson and 
Congressman Green for your testimony this morning and your 
concern. We will be having you in again. Thank you very much, 
gentlemen.
    Mr. Green. Thank you.
    Mr. Thompson. Thank you.
    Ms. Watson. I would like now to ask for the second panel to 
come up and take your seats.
    It is the committee's policy that all witnesses are sworn 
in, so I would like the witnesses to now stand as I administer 
the oath.
    [Witnesses sworn.]
    Ms. Watson. Let the record show that the witnesses have 
answered in the affirmative, and you are now seated.
    I would first like to introduce Mr. James Jones, he is the 
Principal Deputy Assistant Administrator of the U.S. 
Environmental Protection Agency's Office of Prevention, 
Pesticides, and Toxic Substances. He is responsible for 
managing the daily operations of the office which oversees the 
Nation's pesticide, toxic chemical, and pollution prevention 
laws. The office has had an annual budget of more than $250 
million, and employs over 1,200 staff. In his 20-plus years 
with the EPA, Mr. Jones has also served as Director of the 
Office of Pesticide Programs, where he was responsible for the 
regulation of pesticides in the United States, with a budget of 
$150 million and 850 employees, making it the largest EPA 
headquarters program office.
    Mr. John Stephenson is the Director of the Natural 
Resources and Environment for the Government Accountability 
Office. He has directed numerous studies and research projects, 
issued hundreds of reports, and he has testified many times 
before both the House and the Senate committees. Mr. 
Stephenson's area of expertise regarding environmental 
protection includes clean air and water, chemical controls, 
toxic substances, climate change, Superfund, and hazardous 
material spill prevention and cleanup. He has also conducted 
GAO studies and investigations related to information 
technology, Federal acquisition, and Federal grant areas. Mr. 
Stephenson has also worked as deputy staff director for the 
Senate Special Committee on the Year 2000 technology program.
    And Ms. Casey Coleman has served as Chief Information 
Officer for the U.S. General Services Administration since 
2007. As Chief Information Officer, Ms. Coleman manages the 
agency's $500 million information technology program and she 
oversees the management, acquisition, and integration of GSA's 
information resources. Her oversight includes strategic 
planning, policy, capital planning, systems development, 
information security, enterprise architecture, and e-
government.
    Prior to this position, Ms. Coleman served as the Chief 
Information Officer for the Federal Acquisition Service in 
2006. Her other experiences include GSA's Office of Citizen 
Services where she launched the USA Services governmentwide 
citizen customer service program.
    And so as we get started, I would like to call on Mr. 
Jones.

  STATEMENTS OF JAMES JONES, PRINCIPAL DEPUTY ADMINISTRATOR, 
OFFICE OF PREVENTION, PESTICIDES AND TOXICS, U.S. ENVIRONMENTAL 
PROTECTION AGENCY; JOHN STEPHENSON, DIRECTOR, NATURAL RESOURCES 
 AND ENVIRONMENT, GOVERNMENT ACCOUNTABILITY OFFICE; AND CASEY 
   COLEMAN, CHIEF INFORMATION OFFICER, U.S. GENERAL SERVICES 
                         ADMINISTRATION

                    STATEMENT OF JAMES JONES

    Mr. Jones. Good morning, Madam Chair, Ranking Member 
Bilbray, and members of the subcommittee. Thank you for the 
opportunity to discuss EPA's role in the procurement and 
management of green initiatives related to IT assets.
    I am glad to be here with colleagues from GAO and GSA, as 
well as representatives from the NGO community.
    Over the last several years, the Environmental Protection 
Agency has been working very hard to green IT procurement and 
to reduce our environmental footprint at EPA and across the 
Federal Government. Today I will discuss several programs that 
EPA and the Federal Government uses to guide the management of 
our IT assets along their complete life cycle, from product 
manufacturing to purchasing to use, and ultimately to proper 
disposal.
    Let me take a few minutes to briefly describe these 
programs.
    The first one is Energy Star. Energy Star is a joint 
program of EPA and the U.S. Department of Energy. Since 1992, 
Energy Star has helped to revolutionize the marketplace for 
cost-effective, energy-efficient products. The program is a 
trusted source of unbiased information that helps homeowners, 
businesses, and other consumers understand their opportunities 
for energy savings with a simple and widely recognized logo.
    The next one is EPEAT. EPEAT is a green purchasing system 
for electronics. It is managed by the Green Electronics 
Council, a 501(c)(3) nonprofit organization. EPA was an early 
funder of this effort and continues to provide technical 
support for the development of EPEAT green standards for new 
product types.
    EPEAT evaluates and then registers products based on a 
total of 23 mandatory criteria to target many different 
environmental endpoints, from energy use to reduction or 
elimination of toxic metals and chemicals, and even product 
packaging. One of these criterion is that EPEAT products must 
meet Energy Star requirements for energy efficiency. This 
program helps people and institutions identify and buy 
environmentally preferable electronics and helps manufacturers 
gain market advantage by building greener electronic products.
    The EPEAT program has had tremendous and enthusiastic 
response. There are almost 3,000 EPEAT-registered products from 
32 manufacturers. In 2008, according to the Green Electronics 
Council, there were purchases of 44 million EPEAT products in 
the United States.
    Given the enthusiastic participation so far, EPA is 
actively exploring opportunities with many EPEAT partners to 
expand the program beyond its current slate of computer 
products. Standards are being created for copiers and fax 
machines and televisions, and plans are in place to develop 
standards for servers and cell phones.
    Given that the Federal Government is likely the largest 
purchaser of consumer products in the United States and spends 
an estimated $74 billion a year on information technology, we 
know that this is an enormous opportunity for us to green our 
own house, so we work hard to lead by example on ways to 
purchase greener electronics products, reduce their impacts 
during product use, and manage obsolete electronics in an 
environmentally safe way.
    To do that, EPA, working collaboratively with the Federal 
Environmental Executive, invited our Federal partners to 
participate in the Federal Electronics Challenge, which laid 
out the following goals by the end of 2010: 95 percent of 
computer purchases are EPEAT registered and 100 percent are 
Energy Star enabled; electronic equipment achieves an average 
life span of at least 4 years, and 100 percent of non-reusable 
electronic equipment is recycled using environmentally sound 
management.
    Sixteen Federal agencies and more than 220 Federal 
facilities are participating in the Federal Electronics 
Challenge and are on track to meet virtually all of the 2010 
goals. In 2008, FEC partners reported 88 percent of computers 
and monitors purchased in 2008 were EPEAT registered. The 
average life of computer equipment in 2008 was 45 months, just 
short of the goal of 48 months for 2010.
    Finally, we also need to manage electronics effectively 
when they have outlived their useful lifetime. Specifically, 
the Federal Government manages the disposition of about 10,000 
computers a week, not to mention other forms of electronics. In 
order to assist Federal agencies in recycling as much of these 
materials as possible and safely disposing of the remainder, 
EPA manages READ, the Recycling Electronics and Asset 
Disposition program. This program provides Federal agencies 
with a dependable method of properly managing electronic 
inventories, recycling electronic equipment, and disposing of 
excess or obsolete electronic equipment in an environmentally 
responsible manner.
    EPA has awarded contracts to companies that can evaluate 
each piece of unwanted equipment and its components, and then 
reuse, recycle, or dispose of them under the following 
hierarchy: refurbish and resell them, using the proceeds to 
offset costs; donate them to charitable causes; recycle as much 
as possible; and properly dispose of the remainder. This 
program is now self-sustaining, meaning the sales from 
recycling pays for the program.
    These program descriptions and results just scratch the 
surface of what is taking place in the world of greening IT in 
the Federal Government, and I would be happy to answer any 
questions that you may have.
    Thank you.
    [The prepared statement of Mr. Jones follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Watson. Thank you, Mr. Jones.
    We will now hear from Mr. Stephenson.

                  STATEMENT OF JOHN STEPHENSON

    Mr. Stephenson. Thank you, Madam Chair, Congressman 
Bilbray, and members of the subcommittee. I am pleased to be 
here today to discuss our work on Federal procurement of 
computers and other electronic products and ways in which 
procurement of such products can reduce the impact of 
electronic waste, or e-waste. The Federal Government is the 
world's largest purchaser of electronic equipment, annually 
spending nearly $75 billion in products and services, or 7 
percent of the world market.
    Through its purchasing decisions, the Federal Government 
has substantial leverage to enhance recycling infrastructures 
and stimulate markets for environmentally preferable electronic 
products.
    E-waste disposal has become increasingly important because 
of rapidly advancing technology which has led to increasing 
sales of new electronic products, and in particular computers, 
monitors, PDAs, and cell phones. With this increase comes the 
dilemma of what to do with the old computers and electronics. 
If discarded improperly, a number of adverse environmental 
impacts may result, ranging from the loss of valuable resources 
in the electronics such as copper, gold, and aluminum, to the 
potential harmful substances such as cadmium, lead, and mercury 
entering the environment.
    EPA estimates that the Federal Government disposes of 
10,000 computers a week, as you have heard. Agencies generally 
can donate their usable equipment to schools or other nonprofit 
educational institutions; give them to a recycler; exchange 
them with other Federal, State, or local agencies; trade them 
in to offset the cost of new products; or sell them through 
GSA's surplus property program, which then sells equipment at 
public auctions.
    Federal agencies, however, are not required to track the 
ultimate destination of their e-waste. Consequently, they don't 
know what happens to it. In our August 2008 report we show that 
some U.S. electronics recyclers, including ones that publicly 
tout their exemplary environmental practices, showed a 
willingness to violate U.S. hazardous waste export laws and 
export e-waste to countries in southeast Asia, where they were 
often dismantled under dangerous health conditions using 
methods like open air incineration and acid baths to extract 
precious materials, as you heard from the two Congressmen.
    In November 2005 we reported on two promising initiatives 
that could help Federal agencies and others in procuring, 
operating, and disposing of electronic products and waste that 
would save costs and reduce such e-waste impacts. You just 
heard the EPA witness explain those.
    First, EPA's EP program assists procurement officials in 
comparing and selecting computers with environmentally 
preferable attributes like energy efficiency features, snap-in 
components for ease of upgrade, and reduced toxicity of 
materials.
    Second, the Federal Electronics Challenge [FEC], program 
helps agencies fully utilize the benefits of EPEAT-rated 
electronics by providing resources to help extend product life, 
operate them in an energy-efficient way, and expand markets for 
recycling and recovered materials.
    Notably, energy savings and environmental benefits to the 
Federal Government have resulted from these initiatives. EPA 
reports that 16 agencies and 228 Federal facilities 
representing about one-third of the Federal employees 
participated to some extent in these programs, and that for 
these participating agencies, 88 percent of all computers and 
monitors were EPEAT-registered products.
    In addition, 50 percent of the electronics taken out of 
service were donated for reuse, 40 percent were recycled, about 
8 percent were sold, and 2 percent were disposed of. These 
environmentally preferable choices enabled over $40 million in 
savings at the end of 2008.
    The problem is that not nearly enough Federal agencies and 
facilities are taking advantage of these electronics product 
stewardship programs. First, if one third of the Federal 
agencies are participating in these promising initiatives, it 
means that two-thirds are not, despite instructions to do so in 
Executive orders signed by both Presidents Bush and Obama.
    Second, few participating agencies are maximizing the use 
of these initiatives. For some, participation merely means that 
the agency has identified its current practices for managing 
electronics products and set goals to improve them, but only 
two Federal facilities by the end of 2008 showed that they 
actually managed electronics products through all three life 
cycle phases--procurement, use, and disposal.
    For perspective, we calculated that if Federal agencies in 
the normal course of procurement replaced 500,000 computers and 
monitors with EPEAT-registered products and operated and 
disposed of them in accordance with FEC goals, they could save 
over $200 million in energy usage and realize other cost, 
waste, and emissions reductions. This is the equivalent of 
annual energy use for over 180,000 homes.
    As the world's biggest user of electronics products, the 
Federal Government simply must take more of a leadership role 
in this area.
    Madam Chair, that concludes my summary, and I will be happy 
to answer questions at the appropriate time.
    [The prepared statement of Mr. Stephenson follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Watson. Thank you.
    Ms. Coleman.

                   STATEMENT OF CASEY COLEMAN

    Ms. Coleman. Good morning, Chairwoman Watson, Ranking 
Member Bilbray, and members of the subcommittee. Thank you for 
inviting me here today to appear before you to discuss the 
application of green policies in the life cycle management of 
GSA's information technology assets.
    GSA has taken a life cycle approach to our IT 
sustainability program. We buy energy efficient devices 
certified through the Electronic Product Environmental 
Assessment Tool [EPEAT], which you have just heard about, a 
program developed with a grant from the Environmental 
Protection Agency.
    We encourage our users to rely on fewer devices, such as 
shared multi-function printers, rather than a printer on every 
desk. We employ modern approaches, such as virtualization, to 
reduce the number of servers required to perform the same 
amount of work. And we have a program to ensure that assets at 
their end of life are recycled responsibly.
    GSA's path toward a sustainable green IT program began 
maturing in 2007. That year GSA began a program to consolidate 
all agency infrastructure and operations into one program 
called GSA IT Global Operations [GITGO]. We consolidated 39 
contracts and 15 help desks into a single program under the 
management of the GSA CIO.
    The GITGO program was critical to enabling our green IT 
efforts. Previously, our IT assets were not standardized and 
there was no central accountability or visibility into where we 
had assets deployed.
    Through GITGO, the Office of the Chief Information Officer 
began to modernize, standardize, and consolidate the agency's 
infrastructure. Our goals were cost savings, improved 
sustainability, and equipping our work force with modern tools 
and effective support procedures necessary for them to perform 
their missions effectively.
    Our infrastructure management efforts have yielded 
significant green benefits in several areas, including server 
and printer consolidation, telework support, and toner 
management.
    On the broader scale, we are investigating new technologies 
such as cloud computing and green data center advances, which 
offer the promise of further significant reductions in energy 
consumption.
    Madam Chair, Ranking Member Bilbray, and members of the 
committee, thank you again for the opportunity to appear before 
you to discuss this important subject. GSA is committed to 
environmentally friendly policies and procedures throughout the 
IT life cycle. We will continue our current initiatives and are 
constantly on the lookout for new and innovative ways to become 
even more green.
    This concludes my testimony. I will be happy to answer any 
questions you may have.
    [The prepared statement of Ms. Coleman follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Watson. I want to thank all the witnesses. I would like 
to first start with Mr. Stephenson.
    The Federal agencies probably are responsible for more e-
waste than any others. Is data on e-waste maintained for the 
Federal Government as a whole, or is it maintained by 
individual agencies? Can you kind of clarify that for us?
    Mr. Stephenson. GSA might be a better person to answer 
that, but I think they maintain their inventories, themselves; 
however, participation in the kinds of environmental programs 
we are talking about are maintained by EPA.
    Ms. Watson. Mr. Jones.
    Mr. Jones. I'm not aware whether the Government is 
collecting the information across the entire Government or 
whether it is by individual agencies. We would have to get back 
to you on that.
    Ms. Watson. Mr. Stephenson, what would you suggest in order 
to have this analysis, data analysis?
    Mr. Stephenson. Well, we are looking at the environmental 
stewardship programs, and we are pleased with the progress in 
the first 4 years of the program, but we just think there is a 
great opportunity to increase participation in the program, 
make sure that the EPEAT standards are rigidly adhered to. Both 
Presidents Bush and Obama expressed their desire for them to do 
so. In the Executive order that was just established 3 weeks 
ago, there is even a requirement for OMB and the Council of 
Environmental Quality to monitor agency participation in those 
programs.
    I described the cost savings that could occur if we did 
that, let alone the implications of end-of-life disposal that 
you heard Congressman Green talk about.
    Ms. Watson. Thank you.
    Of the e-waste generated by our Federal Government 
agencies, how much is sent for reuse and how much is recycled? 
Any one of the three of you?
    Mr. Stephenson. Our statistics show that about 40 percent 
are recycled. Only about 2 percent are disposed of. The problem 
is recycled means giving to a recycling contractor, and without 
downstream auditing you are not sure what that recycling 
contractor is doing with it. The Federal Government doesn't do 
its own recycling; it contracts with others to do that. To 
assure that the recycler is credible, that is what we mean by 
downstream auditing, making sure they are good actors. We found 
in our analysis in 2008 that there are many bad actors out 
there that promise environmental stewardship but don't deliver. 
They are the very ones that wind up exporting this equipment 
overseas.
    Ms. Watson. And, again, Mr. Stephenson, we understand that 
agencies' compliance with EPEAT and other electronics 
stewardship requirements is reported to the OMB and via 
environmental score cards, and according to press reports, 13 
agencies, including the GSA and the EPA, complied with EPEAT 
requirements in 2008, but they accounted for only one-quarter 
of the IT procurement spending. How much has compliance with 
EPEAT improved since then?
    Mr. Stephenson. That is a better question for EPA, I think.
    Ms. Watson. OK, Mr. Jones. And you can jump in, any one of 
the three of you.
    Mr. Jones. Thank you, Madam Chairwoman.
    We expect that those numbers will be improving pretty 
dramatically in the coming years. One of the issues that we are 
dealing with in the executive branch as it relates to 
procurement is that IT contracts, as many contracts, are often 
on 5-year or 10-year cycles, so an agency that has a large IT 
procurement contract that expires, let's say, in 2013 will not 
be purchasing any IT until 2013, so when that contract comes up 
through the Executive order and a recent acquisition regulation 
that was promulgated in January 2009, we will be able to ensure 
that those acquisitions will be fully compliant with the EPEAT 
requirements that have been established in the Federal 
Government.
    So we think that over the next 5 years, in particular--for 
some agencies a little bit longer than that if they have very 
long IT procurement contracts--those numbers will be climbing 
up pretty dramatically to ultimately reaching the goal of 95 
percent of all IT procurement being EPEAT compliant.
    Ms. Watson. Ms. Coleman, determining how much e-waste is 
generated is difficult, we understand, and often attention is 
paid only to the end-of-life management of cathode ray tubs or 
CRTs, and almost nothing is known about other categories of e-
waste such as keyboards, mice, flat panel monitors, central 
processing units, cell phones, which also contain hazardous 
constituents or recyclable materials, and it may be difficult 
to determine what happens to e-waste after it is collected by a 
recycler.
    Recycling may include various activities such as sorting 
the waste, de-manufacturing it to remove hazardous 
constituents, and the export of certain components for further 
processing.
    It may also simply involve the export of whole units for 
refurbishment and reuse or for processing for recycling. 
Recycling that involves entirely domestic operations will 
likely be more costly than those that simply export e-waste.
    It is possible that the practices of any downstream vendors 
will be unknown, and so the policies of individual agencies may 
be relatively easy to find, but documentation that demonstrates 
compliance with these policies may not be easy to determine, 
particularly at the field level. . So, Ms. Coleman, given GSA's 
high volume of purchases of IT and other equipment, please 
respond to these questions.
    Describe the steps that GSA takes on the instructions of 
GSA to provide to other Federal agencies to ensure that 
donated, recycled, or publicly sold Federal electronics 
equipment is not irresponsibly exported to developing countries 
where it may threaten human health and environment.
    Ms. Coleman. Madam Chair, I can speak to the steps that GSA 
follows internally. I will have to get back to you with the 
information about GSA's information that would be shared 
externally with our customer agencies.
    Within the agency we have a four-step process for our 
disposal of end-of-life IT assets. The first step is to put 
end-of-life IT units--monitors, computers, and so forth, 
printers--up for charitable donations through the computers for 
learning program. The second step is to make them available to 
other agencies that may have a use for them. The third step is 
to put them up for public auction through GSA's online 
auctionsite.
    The vast majority of our devices are handled through these 
first three channels. Those that remain are returned to the 
reseller as a credit for new devices, and the terms of the 
contract call for responsible recycling on their part.
    Ms. Watson. Mr. Bilbray.
    Mr. Bilbray. Thank you, Madam Chairwoman.
    Mr. Jones, there is reported 21 million metric tons of 
waste produced in North America. Do you know what portion of 
that is United States? What is our national production of e-
waste every year?
    Mr. Jones. I don't know that, Mr. Bilbray. I would need to 
get back to you on that.
    Mr. Bilbray. But let's just say a lion's share of that 21 
million metric tons would be United States, wouldn't you 
assume, between Canada and Mexico and the United States?
    Mr. Jones. Yes, I would.
    Mr. Bilbray. What is our capability to recycle within those 
borders?
    Mr. Jones. That is another question I don't think I have 
the answer to but would need to get back to you.
    Mr. Bilbray. I just think that we have a panel before us, 
just before you, that says we are going to outlaw the exporting 
to a large percentage, but we are not talking about what are we 
doing to pre-empt that export by siting. What does the EPA do 
to assure that we have recycling facilities within the United 
States to address this problem? What do you do today?
    Mr. Jones. Well, as you probably know, Mr. Congressman, the 
recycling in the United States does not have a Federal mandate 
related to it. There is no Federal requirement related to 
recycling. We have worked with the private sector, interested 
parties, in developing certification programs. These are 
voluntary consensus standards, so that if a recycler claims to 
follow certain practices there is some third party verification 
of that. So it has largely been, from the Federal Government, a 
voluntary approach where we encourage recycling and then we 
work with interested third parties in establishing verification 
standards to ensure that recycling is followed according to 
good environmental practices.
    Mr. Bilbray. Does the EPA know how many facilities have 
been sited in the last decade and what is their volume 
capabilities that we have done? Basically, if it is automobile 
production, if it is the production of the units within the 
United States, you know, Department of Commerce can tell us 
what was produced within our jurisdiction. Can EPA tell us what 
was recycled within our jurisdiction?
    Mr. Jones. The Agency could provide the data by a range of 
sectors, from newspaper to glass recycling to--I think that we 
actually probably could give you a fair amount of data on 
electronics recycling.
    Mr. Bilbray. When we get in here, when we talk about the 
recycling we are not talking about source separation, we are 
talking about a product, the waste stream being made into a 
marketable product within the United States.
    Mr. Jones. So the recycling leading to some meaningful 
economic reuse?
    Mr. Bilbray. Within the jurisdiction of the United States.
    Mr. Jones. I do not have access to that information with 
me, but I expect that the agency has a fair amount of 
specificity with respect to, by sector, that kind of data.
    Mr. Bilbray. OK. I will just tell you something, as 
somebody that has worked on environmental issues since 1970: it 
really pains me to watch the ships on the west coast drop off 
automobiles and get filled with cardboard, plastics, and 
steels, and whatever, and the ships go off to over the seas 
with our waste products and we do very little of that 
proportionately in this country.
    My biggest concern is that, rather than reactionary and 
regulatory, we need to take with our environmental strategies 
the kind of approach that the Eisenhower Act did with 
transportation. We don't just wait for the private sector to 
come forward with a proposal for a highway. We don't wait for 
them to site it, to do the environmental regulations, and 
whatever, and then we just oversee it. We are proactive 
partners from the get-go to be able. To create the interstate 
system that all of us brag about, that wasn't just a result of 
the private sector doing all the heavy lifting and the Federal 
Government being a passive observer and a regulator. We were 
actually proactive in that.
    I just would really like to see you be able to come back to 
this committee with, We have a strategy of making sure that we 
look for good locations, we look for good companies, we 
actually work with them, we help them site it. When a local 
community is opposing it based on this, we are proactive at 
working with them as partners, just like we do with a freeway. 
I mean, let's face it, the Federal transportation works with 
the State to site and to move forward with that. We haven't 
done that with our recycling facilities. We have been a 
passive, sort of hands-off approach.
    I think with that is we are going to run into this crisis. 
We keep saying no, no, no, no, and that is our Government's 
obligation. It is easy to say no. But it is almost like me to 
asking my son to take out the trash but feel like I don't have 
the responsibility to make sure there is a trash can for him to 
put it in. That is your problem, son; my job is just to mandate 
that you have to get rid of this stuff.
    I hope that as we are talking about, Madam Chair, outlawing 
the exporting of this material, that we bear the 
responsibility. With the right to restrict exporting comes the 
responsibility of being partners in citing the facilities to be 
able to recycle.
    Mr. Jones, I apologize. I will give you a chance to respond 
to that.
    Mr. Jones. I appreciate that, Congressman Bilbray. I will 
say that to date the executive branch, the EPA, in particular, 
our energy has been around the design of products, to try to 
work to design these products so that they do not create wastes 
that are difficult to manage, and I think you will hear 
somewhat from our colleagues with the Green Electronics Council 
about their efforts around EPEAT's design of electronics so 
that they do not create wastes that become difficult or 
potentially environmentally challenging to recycle.
    So far our energies are around design as opposed to the 
actual recycling aspects of ultimately the disposition of these 
products.
    Mr. Bilbray. And the problem is people feel like they have 
a right to be able to regulate their own States, but they feel 
no responsibility to accommodate the waste stream. And 
California is one of the worst. I mean, our low-level radiation 
issue, our lack of siting medical waste facilities is a blatant 
example of just irresponsible environmental management, so I 
bear that. And the Chairwoman, both of us come from a State 
that has not set a good example on that and trying to reform 
ourselves.
    Ms. Watson. Thank you.
    Mr. Luetkemeyer.
    Mr. Luetkemeyer. Thank you, Madam Chair.
    I have a question for Ms. Coleman. In your testimony I was 
interested, you have highlighted the telework program that you 
work with. I was kind of interested to see, in order to set 
this up, you know, one of the things we are talking about here 
is conservation and getting rid of all our excess e-products 
here. To set this up, how much extra e-product do we have to 
purchase or use to be able to set up the ability of people to 
telework from home or from some sort of central location? It 
would seem to me like a computer at home, computer at work, 
still a computer. Am I missing something here, or is it 
basically about a tradeoff there?
    Ms. Coleman. You point to a good issue, sir, that we 
addressed in 2007 with GSA's telework challenge, is the name of 
the program.
    Mr. Luetkemeyer. Yes.
    Ms. Coleman. At that time, GSA had fewer than 20 percent of 
its employees teleworking, and we undertook an initiative to 
see that over 50 percent of our employees were regularly 
teleworking in order to reap the benefits such as reduced 
dependence on foreign oil, reduce congestion, improved employee 
morale, and improved ability to respond in the event of a 
continuity of operations or building emergency situation.
    As I said in my opening remarks, we have instituted a 
policy that encourages the reliance on fewer devices. In order 
to do that and avoid the situation that you refer to where 
employees might have a computer at home, a computer at work, 
and perhaps another one in their car for emergencies, we 
outfitted all eligible employees for telework with laptop 
computers which we ask that they use either when they are 
teleworking at home or in the office in a docking station.
    Mr. Luetkemeyer. Have you seen the program increase 
productivity of individuals, or have you seen a drop-off, or 
has it been wildly successful? How do you analyze it, I guess?
    Ms. Coleman. We believe the program has been and continues 
to be successful. Our goal in 2007 was 20 percent of our 
employees teleworking, and in 2008 40 percent. Then at the end 
of 2009 we were at 46 percent of our eligible employees 
regularly teleworking. It is viewed as both a benefit on the 
part of employees and a helpful aid in the part of management, 
because now we have employees who can work in situations where 
they might otherwise not be able to, in the event of a snow 
emergency or whatever.
    Mr. Luetkemeyer. Well, it increased participation, but did 
it increase productivity?
    Ms. Coleman. Yes, sir.
    Mr. Luetkemeyer. It did. OK. Do you have any incentives for 
people to do this?
    Ms. Coleman. We do not offer any particular incentives in 
terms of paying for broadband access. We do provide them with 
modern equipment. In some cases they have not only a laptop but 
also a voice over IP phone, which allows them to function as if 
they were in the office, with the same phone number and same 
access to our employee directories. So there is sort of an 
inherent benefit in telework through foregoing a daily commute 
that is viewed as part of the benefit of participating in 
telework.
    Mr. Luetkemeyer. How widespread is your program? Is it just 
in your agency, or are you promoting this throughout the 
Federal Government, or how are you administering this? Where 
are you going with it?
    Ms. Coleman. GSA and the Office of Personnel Management 
jointly have a responsibility for the Government-wide oversight 
of the Federal executive branch telework program. GSA, because 
it has that role, viewed itself as obligated to be a leader in 
that effort, and that is the program I refer to is telework 
within our agency.
    Mr. Luetkemeyer. What do you anticipate being the ultimate 
goal to max out your program? I see 50 percent is your target 
here, and you have reached that, or very close to it already. 
Is that the optimum of where we need to go with this?
    Ms. Coleman. We have not established a higher goal; 
however, we are looking at the program to see if perhaps, now 
that we have a regular practice of telework and a culture of 
telework, perhaps there is opportunity to do more. At this time 
we haven't reestablished new goals.
    Mr. Luetkemeyer. OK. Thank you.
    Thank you, Madam Chair.
    Ms. Watson. Thank you.
    Mr. Jones, the organization called Recycling Assets and 
Electronics and Assets Disposition Services, are referred to as 
READ?
    Mr. Jones. Yes.
    Ms. Watson. How long do these contracts run?
    Mr. Jones. Madam Chair, the existing contract actually 
expires at the end of this year, but I will say that we have 
been competitively put out of business in that there are 
alternative Government entities who are stepping up to the 
plate who will be able to provide that contract for cheaper 
than we were able to, and so when this contract expires that 
will be the agency's last contract.
    Ms. Watson. I see. Because the questions that we are 
concerned about, that we have been raising, what e-waste is 
sent for recycling and how is it managed and what types of 
assurances are obtained to show that the materials are handled 
properly and legally by downstream vendors throughout the 
recycling chain, and what criteria does the agency use to 
select a recycler, and is it primarily priced. These are some 
of the answers that we would like to have, and we will have you 
back.
    But just recently the New York Times reported that both the 
Department of Energy and the EPA Inspector Generals have 
detected significant problems with the accuracy of Energy Star 
labels, with consumers buying products that are mislabeled, and 
this is a bad precedent for consumers and the environment, as 
consumers pay more for Energy Star products, yet these 
appliances fail to save energy. So how serious a problem is 
this, and what steps has EPA taken to address this problem?
    Mr. Stephenson. Thank you, Madam Chair. The agency takes 
the IG report--there were IG reports both with the Department 
of Energy and at the Environmental Protection Agency spaced 
about 9 months apart that basically said the same things. We 
have undertaken to develop a memorandum of agreement with our 
colleagues at the Department of Energy to more clearly define 
the roles of our agencies and verification, which is the issue 
that is raised in the New York Times article and in the IG. It 
is going to get much greater prominence and clarity with who 
has that responsibility. So we take the IG reports seriously 
and feel like we have put into place appropriate corrective 
action to address the issue.
    Ms. Watson. Ms. Coleman, have any mislabeled Energy Star 
products shown up on the GSA's schedules? If so, what is GSA 
doing to ensure that Federal agencies are not buying mislabeled 
products?
    Ms. Coleman. Madam Chair, I am not aware of that occurring. 
I will go back and find out if we know of anything that I am 
not personally aware of at this time.
    Ms. Watson. OK. And let me then ask Mr. Stephenson, has the 
GAO investigated this matter, and, if not, are there plans to 
do so?
    Mr. Stephenson. We haven't investigated this matter, nor 
have we been asked to do so at this point.
    Ms. Watson. Well, can you get back to us on this issue?
    Mr. Stephenson. Yes.
    Ms. Watson. Since it was brought up in the papers?
    Mr. Stephenson. Yes.
    Ms. Watson. OK. Are there any more questions?
    Mr. Stephenson. Madam Chair, could I make one observation 
about Congressman Bilbray and recycling?
    Ms. Watson. Yes.
    Mr. Stephenson. He is absolutely on the right track. There 
are very responsible recyclers in this country and abroad. The 
problem is there is not economic incentives for them to do 
their job right now because there is no Federal legislation 
that controls electronic waste. Right now some 20 States have 
various laws on the books that range from everything from 
landfill bans for computers, but there are currently no 
economic incentives to get those recyclers up to speed. There 
is probably more capacity right now than there is material to 
recycle because of that.
    Your State, California, has an advanced recovery fee 
approach where the consumer pays a certain amount to enable 
recycling at the end. The State of Maine and most of the other 
States have what is called an extended producer responsibility 
program where the manufacturer is required to take back 
computers and then recycle them in a responsible way.
    So that is why we called for, in our 2005 report, Federal 
legislation on this issue, and we are not concerned--export is 
just kind of an outgrowth of that. If we do a better job of 
procuring and managing end-of-life, we will do a better job 
with the recycling of illegal exports at the end.
    Mr. Bilbray. Madam Chair.
    Ms. Watson. Mr. Bilbray.
    Mr. Bilbray. California being an example, we have a 
surcharge on the products. How many facilities have we sited in 
California to finance that? In other words, where do those 
funds go? Do you know?
    Mr. Stephenson. Well, right now in California they go to 
the recyclers, but they go to the collection agents and the 
recyclers. Exactly. And according to Congressman Thompson, 
there is a state-of-the-art facility in northern California. I 
think you are going to hear on the third panel another recycler 
that can explain in more detail the importance of the way the 
computer is designed and how it is managed, the materials it is 
made of, how easy it is to take apart.
    Mr. Bilbray. In fact, District One is so far north we think 
of that as southern Oregon. But it is a concern that we are 
quick to outlaw certain options.
    Mr. Stephenson. Right.
    Mr. Bilbray. But we are not proactive at providing the good 
options in there, basically saying, Well, that is your problem; 
we are here to just make sure you dispose of it but don't ask 
us to participate in helping to create those options.
    And the biggest concern I have, coming from a working class 
community, being born and raised there, is traditionally when 
you eliminate the other options the bootleg options start being 
forced in, and then we are the first ones to scream, How could 
all this illegal dumping bailout on? How could this ever 
happen? Well, we have created a situation that basically makes 
it very, very tempting to go to that option because all the 
other options, the good options, have not been made available 
because it wasn't our responsibility to provide the positive 
option.
    I think that we have, in Government, to be more proactive 
at creating those positive options, and that our responsibility 
is not just to make sure that waste is not disposed of in the 
wrong way, but we have a responsibility to be proactive, like 
we did the freeways, and make sure there is a good option 
available to the capacity that we admit is there, you know, 21 
million metric tons, so hopefully we will be able to see that 
cooperation.
    And the States do have a right of control. But they also 
have a responsibility as a consumer, as a government agency, as 
we would say to consumers that you have a responsibility to 
make sure your waste stream is managed appropriately when you 
throw it out.
    Thank you very much. I appreciate it.
    Mr. Stephenson. Absolutely.
    Ms. Watson. Thank you, Mr. Bilbray. You see where we need 
to go, so we are going to have subsequent hearings on this 
matter. There are two bills available to us now, and within 
those two bills we might find a provision, Mr. Bilbray, where 
we can make the Federal Government more responsible in this 
regard.
    I want to thank all the witnesses. This concludes the 
second panel.
    I thank Mr. Jones, Mr. Stephenson, and Ms. Coleman for your 
testimony. You may be excused now. Thank you so much.
    We are now going to turn to the third and the final panel, 
if they will come up: Mr. Biddle, Mr. Casellas, Mr. Goss, and 
Mr. Littlehale. You can stay standing.
    As you know, it is the policy of the Committee on Oversight 
and Government Reform to swear in all witnesses before they 
testify.
    [Witnesses sworn.]
    Ms. Watson. Let the record reflect that the witnesses 
answered in the affirmative.
    I will now take a moment to introduce our distinguished 
panelists.
    Mr. Michael Biddle is president and founder of MBA 
Polymers, which he started in Richmond, CA, in 1994. 
Previously, Mr. Biddle served as principal of Michael Biddle 
and Associates, as research leader for Dow Chemical Co., and as 
an adjunct professor at St. Mary's College in Moraga, CA.
    Mr. Gilbert Casellas is vice president of corporate 
responsibility for Dell, Inc., where he oversees the company's 
global diversity, sustainability, and corporate philanthropy 
functions. He previously served as chairman of the U.S. Equal 
Employment Opportunity Commission, as General Counsel of the 
Department of Air Force, and as a co-chairman of the U.S. 
Census Monitoring Board.
    Mr. Rick Goss manages the Information Technology Industry 
Council's Environmental Leadership Council, which promotes the 
Council's positions on electronics recycling, materials content 
and design, and green procurement. Mr. Goss represents the 
electronics industry before elected officials, regulators, and 
the media, and he has testified on behalf of high-tech 
manufacturers before Congress and in several States.
    He also works on international regulatory issues related to 
the environment, energy, and sustainability, and he 
participates in several Federal and State planning teams and 
task forces on environmental priorities. His prior experiences 
include working for the Electronics Industries Alliance as vice 
president of environmental affairs.
    Mr. Rich Littlehale is a senior at Yale College majoring in 
history. During his summers at Yale, Rich has worked on a 
construction team for an investment firm and at an investment 
bank, and in 2008 Rich took a leave of absence from Yale to 
found a green electronics reuse and recycling company called 
YouRenew.com, which helps people, businesses, organizations, 
and government recycle their old electronics equipment.
    Finally, Mr. Jeff Omelchuck founded the Green Electronics 
Council in 2005 to reinvest society's relationship with 
electronics. In 2006 the Green Electronics Council was selected 
to oversee Electronics Product Environmental Assessment Tool 
[EPEAT], the global green certification program for 
electronics. Mr. Omelchuck was selected to serve as the 
executive director for both the Council and EPEAT. His prior 
experiences include founding a consulting and training practice 
and working as an engineer in Silicone Valley.
    I ask that each of the witnesses now give a brief summary 
of their testimony, and keep this summary under 5 minutes in 
duration. Your complete written statement will be included in 
the hearing record.
    We will now start with Mr. Biddle. You may proceed.

   STATEMENTS OF MICHAEL BIDDLE, PRESIDENT AND FOUNDER, MBA 
     POLYMERS; GILBERT CASELLAS, VICE PRESIDENT, CORPORATE 
 RESPONSIBILITY AND CHIEF DIVERSITY OFFICER, DELL, INC.; RICK 
     GOSS, VICE PRESIDENT, ENVIRONMENT AND SUSTAINABILITY, 
INFORMATION TECHNOLOGY INDUSTRY COUNCIL; RICH LITTLEHALE, CHIEF 
   EXECUTIVE OFFICER, YOURENEW.COM; AND JEFF OMELCHUCK, GEC 
   DIRECTOR AND EPEAT EXECUTIVE DIRECTOR, GREEN ELECTRONICS 
                            COUNCIL

                  STATEMENT OF MICHAEL BIDDLE

    Mr. Biddle. Thank you, Madam Chairwoman.
    Chairwoman Watson, Ranking Member Bilbray, and members of 
the committee, thank you for the opportunity to appear before 
you today. I would like to commend the committee for 
recognizing the importance of this subject and its relevance to 
some of the other challenges facing our country today.
    I started MBA Polymers over 15 years ago to implement a 
more sustainable way to manufacture plastics, and I did it for 
a couple of reasons. The biggest perhaps is because I was 
watching this country consume about 100 billion pounds each and 
every year of plastics, and throw over 90 percent of that in 
landfills. The less than 10 percent, more like 6 or 7 percent, 
that we managed to collect for recycling, most of it ends up 
overseas, as Representative Bilbray has already pointed out. 
And I thought there was a better way to use this valuable 
resource.
    MBA Polymers is now the world leader in mining and 
recycling plastics from end-of-life durable goods such as 
computers, electronics, and automobiles. We are headquartered 
in Richmond, CA, where we have an office and research center; 
however, we build our manufacturing plants, which are the most 
advanced plastics recycling plants on the face of the planet, 
overseas. We build them in Asia and we build them in Europe, 
because this is where the collection infrastructure for end-of-
life durable goods like electronics has been developed.
    Our company has been recognized for breakthrough 
technologies, like awards from the World Economic Forum, Tech 
Pioneer, Intel Corp.'s International Environmental Award, and 
the Thomas Alva Edison Award for Innovation. And we were just 
named 1 of the top 100 clean tech companies in the world.
    On one side of our business we mine the plastics from the 
materials left over after electronics and automobile recyclers 
recover the materials from end-of-life products. We take what 
is called their shredder residue, which is a complex mixture of 
materials that would otherwise be landfilled or incinerated, 
and from this we recover a number of different plastics, and 
even some of the metals that they missed.
    By working very closely with literally hundreds of computer 
and electronic recyclers all over the world, we know firsthand 
the breadth of approaches to collect, transport, and recycle 
end-of-life computers and electronics. We have seen the most 
primitive to the most sophisticated recycling approaches and 
technologies and everything in between.
    On the other side of our business, we sell our recycled 
plastics to some of the largest IT, electronics, and automobile 
companies in the world, so we also know firsthand the 
challenges and opportunities manufacturers face in using 
recycled materials in their new products.
    I hope this explains why I am here as a witness at your 
hearing today.
    My testimony can be summarized very simply: we believe that 
the United States is missing both a timely leadership and an 
enormous economic opportunity by following our current practice 
of mostly wasting our unique and valuable resources. The United 
States has the largest deposit of end-of-life electronic 
equipment in the world, as we have already heard some of the 
other speakers testify to. You might say, from our perspective 
as a recycling and mining company, that we have the richest 
above-ground mines in the world.
    To kind of put this in perspective, if you look at North 
America, with a population of over 300 million people, we 
generate, as Representative Bilbray already pointed out, over 
20 million tons of e-waste a year. And I am using e-waste in 
the sense that the EU defines it--anything with a cord or 
battery, just so we understand the definition. That is almost 
70 kilograms per each person in North America.
    By contrast, Europe, with about twice our population, 
generates less e-waste, so they end up generating less than 
one-third per person than what we do here in the United States 
per year.
    And in Asia, if you look at the other extreme, with a very 
large population and much less e-waste, they only generate 
about 5 percent per person per year, compared to the United 
States.
    Now, much of the obsolete electronics in the United States 
are stored in closets and garages. I know my family is guilty 
of that. But the majority of the rest is disposed of in 
landfills or incinerators. The EPA estimates that less than 20 
percent of even the high-value portions of this e-waste stream 
is recycled. Unfortunately, the small amount that is collected 
for recycling is mostly shipped overseas to developing 
countries, often without the knowledge or means to recycle the 
equipment and materials in a way that protects the workers or 
the local environment.
    We have already referred to the shows on 60 Minutes, 
National Geographic, and the hundreds of news stories talking 
about what happens when e-waste is handled inappropriately in 
the potentially disastrous consequences.
    Most of the e-waste that is handled inappropriately comes 
from the United States.
    So three things that we would like to point out at this 
hearing:
    First, our country should take a leadership position in the 
responsible management of our large collection of e-waste. We 
are one of the last developed countries to have a national 
policy for these wastes, even though we have the largest 
amounts of this waste in the world.
    Second, and just as importantly, we are missing a 
significant opportunity to reach some enormous economic 
benefits by recovering these materials or this equipment 
domestically. Examples include shovel-ready green jobs. The 
scrap recycling industry here in the United States already 
employs over 85,000 people and generates over $85 billion in 
revenues, and we throw away a great deal of resources. This 
industry is ready to capture those resources, generate jobs, 
and generate revenues.
    There is enormous energy savings that can be realized by 
reusing materials, compared to making them from new. If you 
just look at metals and plastics, for example, they require as 
little as 10 percent of the energy required to making them from 
virgin materials. I can't think of hardly any other 
opportunities where we can slash 90 percent of the energy use.
    And there are also concurrent significant greenhouse gas 
savings from using recycled materials, so let me just put a few 
metrics on the table so you can kind of understand the 
magnitude of these savings.
    I am going to focus on plastics, not just because we are a 
plastics recycler, but because it is the last major material 
category to be recycled anywhere in the world, including the 
United States.
    The EPA estimates that less than 7 percent of our plastics 
are recycled in the United States, and the majority of that, 
about 75 percent of that, is actually shipped overseas for 
recycling, so there is a huge opportunity here that we are not 
capturing.
    If we would only recover one-half of the plastics from end-
of-life electronics and automobiles--and this is very 
conservative, because we recover much higher amounts of metals 
from what percentage of these end-of-life goods we actually 
recycle in the United States--we can save over nine billion 
barrels of oil per year, something like 15 billion kilowatt 
hours of energy per year, and over 5 billion pounds of 
CO<INF>2</INF> from being emitted to the atmosphere every year.
    I have other examples of potential savings in my written 
testimony.
    So third and finally, the U.S. Government can use its large 
purchasing power to accelerate the realization of these 
benefits. Manufacturers are often reluctant to use new 
materials, particularly recycled materials, and recyclers are 
reluctant to make the necessary expensive investments in plant 
and equipment unless they know that they have reliable supplies 
of raw material and a market for their recycled products.
    The U.S. Government can prime the pump and help drive the 
market for recycled materials like plastics. Federal and State 
government policies to procure recycled paper, for example, 
were instrumental in driving up the availability of recycled 
paper and driving down the cost.
    There already exists in a part of the Solid Waste Act 
dealing with Federal procurement that instructs Government 
agencies to procure such items composed of the highest 
percentage of recovered materials practicable. This policy 
seems to have mostly been focused on paper, and we believe 
there remains a huge opportunity to release the value in our e-
waste streams. This would, in turn, create jobs, secure 
resources, save energy, reduce greenhouse gases, and protect 
people and the environment. I think these are all benefits that 
we would like to see happen.
    Thank you, Madam Chair.
    [The prepared statement of Mr. Biddle follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Watson. Thank you.
    Mr. Casellas, you may now proceed.

                 STATEMENT OF GILBERT CASELLAS

    Mr. Casellas. Thank you, Madam Chairwoman, Ranking Member 
Bilbray, members of the subcommittee, thank you for the chance 
to be here today to talk about Dell's commitment to being the 
greenest technology company on the planet and how we work with 
the Federal Government to help achieve its environmental, 
energy, and performance goals.
    For Dell, responsibly reducing environmental impacts and 
economic cost depends on three things: improving our own 
operations, encouraging the supply chain, and empowering our 
customers to reach their environmental goals.
    The first place Dell looks is within our walls. We already 
have met our goal of achieving operational carbon neutrality by 
reducing our energy use, purchasing green power where we can, 
and offsetting the rest. We source about 35 percent of our U.S. 
energy use from green power, and we aspire to 100 percent. In 
fact, we just completed construction of a 516-panel solar 
structure at our Round Rock, TX, headquarters. Just by taking 
some basic energy efficiency steps in our own facilities, we 
reduced our facilities' energy consumption 3 percent last year 
and will save nearly $6 million annually.
    In addition to improving our own operations, our second 
goal is to work with our supplies to expand environmental 
improvements into the supply chain. For example, we now require 
our primary suppliers to measure and publicly report their 
greenhouse gas emissions, and we ask them to set improvement 
goals of their own and set expectations for their suppliers.
    We can make the biggest difference, though, through our 
third goal: by helping our customers achieve their goals around 
performance, cost, and environmental stewardship. IT is a big 
part of the solution to the challenge of reducing energy 
consumption. According to a recent report, for every extra 
kilowatt hour of electricity used to power IT tools, the U.S. 
economic saves 10 times that much.
    We offer customers various services and solutions to 
address their energy and environmental needs, including energy 
efficiency calculators, our green print advisor, and a data 
center capacity planner. We were the first tech company to 
offer customers carbon offsets.
    Dell leads the industry in packaging solutions, shrinking 
volume, increasing recycled content, and increasing the use of 
recyclable packaging material. We are the first manufacturer to 
offer free computer recycling to consumers worldwide, and we 
have been providing responsible recycling services for more 
than a decade. We regularly audit our re-suppliers to the 
highest standards of responsible disposition, and Dell is the 
first major computer manufacturer to ban the export of non-
working electronics to developing countries.
    We bring this experience to the table with our biggest 
customer, the Federal Government. President Obama's new 
Executive order requires Federal agencies to work to reduce 
their greenhouse gas emissions and to buy environmentally 
responsible products and services. We help by participating in 
the creation of environmental procurement standards, as well as 
by providing tools, technology, and services. We participate in 
many partnerships to drive environmental standards, including 
as an original and active participant in both EPEAT and Energy 
Star, and we support EPEAT's efforts to become a global 
standard.
    Many of our green products are described in my written 
testimony, but some that I am most proud of include our more 
than 90 EPEAT products, most rated as gold, and our broad 
Energy Star offerings. We were the first to announce a family 
of Energy Star servers, the first to announce Energy Star 5.0 
products, and all of our displays are now Energy Star.
    We also help our customers rethink their data center 
operations, including through virtualization, the technology 
enabling a single server to act as multiple servers, reducing 
the equipment, power, cooling, and space. In fact, we worked 
with EPA to assess EPA's own data center and computer use. Many 
of our high-volume products come with power management already 
enabled, allowing systems to be powered down when not in use 
and cutting electricity consumption by up to 78 percent. And 
for all our displays, we are transitioning to LED back-light 
technology, which is more energy efficient and is mercury free.
    In conclusion, Dell applauds your efforts to help the 
Federal Government to lead by example with environmentally 
responsible procurement.
    Madam Chairwoman, I am happy to answer any questions you 
may have. Thank you.
    [The prepared statement of Mr. Casellas follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Watson. Thank you so much.
    Mr. Goss.

                     STATEMENT OF RICK GOSS

    Mr. Goss. Thank you, Madam Chair, Representative Bilbray, 
and members of the subcommittee.
    ITI is a trade association representing 43 high-tech and 
electronics manufacturers in the information and communications 
technology sector, including Dell. Through our Environmental 
Leadership Council we also represent several dozen additional 
prominent manufacturers in the high-tech sector.
    Our member companies have long been leaders in 
sustainability. Many exceed the requirements on environmental 
design and energy efficiency and lead the way in product 
stewardship efforts.
    I should also note that Newsweek Magazine recently issued 
its 2009 green rankings of America's 500 largest corporations 
based on their overall environmental performance, policies, and 
reputation. Our members occupy 4 of the top 5 positions and 14 
of the top 40 slots overall.
    ITI and our member companies are strong supports and active 
participants in Energy Star and EPEAT. Both of these programs 
promise valuable and concrete market rewards to those 
leadership companies that make significant time and resource 
investments. I should note that Energy Star is a required 
criterion under EPEAT, and that members of ITI and our 
Environmental Leadership Council dominate the EPEAT registry 
and presently manufacture 90 percent of the 419 EPEAT gold-
rated products.
    I have four recommendations I would like to offer in the 
area of Energy Star and EPEAT, if I may.
    No. 1 is to increase Federal Government procurement of 
Energy Star and EPEAT-rated products. Purchasing requirements 
for Energy Star and EPEAT products are already included in the 
FAR. President Obama's new Executive order on Federal 
leadership in environmental, energy, and economic performance 
includes specific provisions on procuring Energy Star and EPEAT 
electronic equipment. ITI supports this commitment and looks 
forward to working with the administration and Congress on its 
fulfillment.
    No. 2 is to provide targeted funding for education and 
outreach efforts. The largest and most immediate opportunity to 
secure additional energy and cost savings is by educating 
purchasers about the benefits of buying Energy Star and EPEAT-
qualified products. Congress should consider funding for 
initiatives to promote broader awareness on energy efficiency 
and the Energy Star program, on effective use of power 
management features incorporated into ICT products and systems, 
and on the life cycle benefits of purchasing EPEAT products.
    No. 3, maintain green focus of the Energy Star program on 
product energy use. U.S. EPA is considering a potential 
expansion of the Energy Star program to factor ``additional 
energy impacts'' into the specification. The success of the 
Energy Star label is due in large part to the fact that it is 
objectively measurable and verifiable. By focusing solely on 
the attribute of energy consumption of a particular product 
model, Energy Star offers product purchasers a straightforward 
and objective means of evaluating the energy efficiency of that 
product.
    Finally, No. 4, provide additional funding and oversight of 
EPEAT. Manufacturers want to see EPEAT succeed and be the 
premier international procurement program for green 
electronics. The administration of the EPEAT program is 
currently funded solely by manufacturer registration fees. The 
program is expanding at a rapid pace, but there has been no 
additional Government support to revise the original standard 
or provide for the long-term stability of this important 
program.
    In addition, EPEAT is a Federal procurement requirement 
that is being increasingly recognized in international venues 
and by numerous private purchasers; however, the EPEAT program 
is managed by a small third-party single-source provider. ITI 
encourages Congress to provide additional funding and oversight 
of EPEAT to make sure this important program succeeds.
    We also have recommendations in my written testimony on 
ensuring harmonization of procurement within Federal agencies, 
relying on advanced printing solutions, and having the Federal 
Government rely more on videoconferencing.
    I should also make a couple of comments here about asset 
management and recycling. ITI members offer comprehensive asset 
management and product recycling services to the Federal 
Government, as well as to our commercial and institutional 
customers. In fact, our companies have provided for the proper 
recovery and management of well over 2 billion pounds of used 
electronics products. Functional equipment is typically 
refurbished and returned to commerce for environmentally 
beneficial reuse. Our members ensure that older or broken units 
are first used for spare parts as appropriate, and then 
recycled in an environmentally sound manner.
    ITI members also use significant quantities of recycled 
materials, including glass, metals, and plastics, in new 
generations of our products, thus creating demand that helps 
sustain markets for these materials.
    ITI and our members have been working in close coordination 
with U.S. EPA and other stakeholders to develop a set of 
responsible recycling or R2 practices. The R2 practices, which 
are in the process of becoming a recognized standard, will 
allow government, commercial, institutional, and residential 
consumers alike to know that their obsolete products will be 
properly managed.
    Finally, a couple of words on the overall energy climate 
and economic benefits of ICT's systems and services.
    Our sector plays a critical role in helping address major 
strategic challenges, including energy security, economic 
competitiveness, and the transition to a clean energy economy. 
The Smart 2020 report issued by the Climate Group recently 
concluded that ICT strategies for energy efficiency could 
reduce up to 15 percent of global emissions by 2020. The U.S. 
addendum to that report indicates that ICT strategies could 
reduce annual U.S. carbon emissions by up to 22 percent by 
2020, which translates into energy and fuel savings of $140 
billion to $240 billion.
    We have two very specific recommendations in this regard. 
One is to drive energy efficiency considerations into Federal 
enterprise level ICT procurement. We are strong supporters of 
an amendment drafted by Representative Anna Eshoo and Senator 
Mark Udall directing each Federal agency to collaborate with 
OMB to create an implementation strategy for the purchase and 
use of energy efficient information and communications 
technologies and practices.
    Second, we support a provision to direct the Department of 
Energy to create metrics to determine the annual energy rating 
of enterprise level ICT systems.
    ICT energy efficiency programs assist utilities in sharing 
information and best practices. This will drive more meaningful 
demand mitigation programs that will yield dramatic energy 
efficiency savings more quickly.
    Thank you for the opportunity to testify today. I am happy 
to take any questions.
    [The prepared statement of Mr. Goss follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Watson. Thank you so much.
    Mr. Littlehale, you may proceed.

                  STATEMENT OF RICH LITTLEHALE

    Mr. Littlehale. Madam Chair, Ranking Member Bilbray, and 
members of the subcommittee, thank you for the opportunity to 
testify today. My name is Rich Littlehale, and I am a co-
founder of YouRenew.com, a company that is focused on helping 
people, businesses, cities, and other organizations find the 
best outlet for their old electronics, whether that be our 
specialty of re-marketing the devices through retail channels 
or sending the devices to our partner recyclers to be broken 
down and reused.
    Today I plan on briefly discussing three things: first, I 
will give a brief overview of our company; second, I will 
discuss what we believe are three main market needs to increase 
re-marketing and recycling rates; and, third, I will talk about 
how our company is trying to meet these market needs and 
provide our service to individuals, companies, and governments.
    My co-founder and I started the company in May 2008 at the 
end of my junior year at Yale University after noticing the low 
national recycling and reuse rates for electronics. After much 
research, we believe that reuse is the highest form of 
recycling, because these devices' lives can be extended in the 
hands of someone who might not be able to afford brand new 
ones.
    I took last year off from school to get the company 
started. We have since raised capital, grown from 2 to close to 
20 people in the last 7 months, and have recently hired an 
experienced CEO to continue to scale the company. I am now 
splitting my time between working at YouRenew and finishing my 
senior year at Yale.
    After over a year of speaking with some of the best minds 
in the country on reuse and recycling and working nonstop to 
attract and serve customers, I believe we have arrived at three 
critical needs for a successful recycling and re-marketing 
service.
    The first is incentive. Traditionally, organizations and 
people are charged to have their electronics recycled 
responsibly. At YouRenew we actually pay these organizations 
and people for their old devices that we can put back into use. 
This helps offset the cost of equipment that needs to be 
recycled. This is both a win for the organization and for our 
electronics recycler partner. By partnering with partner 
recyclers, we can move more quickly on helping more people and 
organizations manage their end-of-life solutions.
    The second need is transparency. There is concern over 
where the electronics go and if they are being recycled 
properly. Our goal is to continue to be the most transparent 
company on the market and only work with electronics recyclers 
with the highest environmental standing and credibility.
    The third need is convenience. We compete against the trash 
can. Much of our innovation is making it easier for the 
consumer to send in their old electronics. While we have 
achieved great success so far, our company's journey has just 
begun, and it is obvious to us that a great market need still 
exists. For example, as you can see on the screen, we recently 
worked with the city of New Haven to help them recycle and re-
market their old electronics. These electronics were literally 
in a box in the closet of the IT manager's office, who did not 
know what to do with them. We helped explain the proper 
channels for reuse and recycling and have since created a great 
relationship.
    Our vision for YouRenew is to provide full life cycle 
management for individuals and large organizations. That means 
first helping them make the best decisions about which 
electronics to buy through standards like EPEAT, and second 
using our service to help them find the right outlet for the 
reuse or recycling of those devices.
    In the next year, we at YouRenew are aiming to work with 
electronics manufacturers, recyclers, individuals, and the U.S. 
Government to set up a more efficient and transparent framework 
for the second life of electronics. We will work hard with 
these partners to continue to craft the best incentives, 
transparency, and convenience.
    In conclusion, we are ready and willing to help provide the 
best service and excited for what the future holds.
    Thank you again for the opportunity to testify.
    [The prepared statement of Mr. Littlehale follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Watson. Thank you.
    Mr. Omelchuck, you may proceed.

                  STATEMENT OF JEFF OMELCHUCK

    Mr. Omelchuck. Thank you, Madam Chair Watson and Ranking 
Member Bilbray, for this opportunity to testify before your 
committee today.
    My name is Jeff Omelchuck, and I am the executive director 
of the Green Electronics Council and of EPEAT. The Green 
Electronics Council is a 501(c)(3) nonprofit organization based 
in Portland, OR, with the mission of reinventing society's 
relationship with electronics.
    The invitation to testify today said that the committee was 
interested in the Government's procurement and disposal of 
electronics products. I am going to focus more on the 
purchasing end, but I want to clearly make the point that the 
two are related. If you buy greener electronics, you will be 
disposing of greener electronics.
    The invitation also said that the committee was interested 
in learning more about EPEAT, the Electronics Product 
Environmental Assessment Tool, and about the Government's use 
of EPEAT to buy greener IT products, so I will focus my 
comments on those subjects.
    EPEAT is a comprehensive green purchasing system for 
electronics that covers the environmental impacts of products' 
complete life cycle, including reduced toxics in the product, 
design for extended life, and more efficient recycling, energy 
efficiency, greener packaging, and EPEAT also requires that the 
manufacturer provide certain services, including end-of-life 
take-back of batteries, packaging, and the product, itself.
    EPEAT makes it as easy to specify and buy full-scope green 
products as Energy Star makes it to buy energy efficient 
products.
    Further, EPEAT-registered products coast no more than 
conventional products, and EPEAT costs purchasers nothing to 
use.
    EPEAT was developed and launched with the support of EPA 
and hundreds of volunteer stakeholders from all facets of 
society, including environmental NGO's, industry, researchers, 
larger purchasers, and public officials. I think you have heard 
a lot of support in this hearing so far for the parties that 
have participated.
    EPEAT is now marginally financially self supporting. It 
represents a unique and successful public/private partnership 
that is changing an industry using market forces rather than 
regulation.
    The U.S. Federal Government uses EPEAT to specify green 
electronics for its own purposes. The Federal Acquisition 
Regulation, the FAR, and two Executive orders require all 
agencies of the U.S. Federal Government to satisfy 95 percent 
of their need for electronics with products that are EPEAT-
registered.
    Many other organizations around the world also use EPEAT to 
specify and use green electronics, including Federal agencies, 
States, cities, education systems, hospitals, and corporations 
from Brazil to Thailand. These purchasers combined contracts 
for EPEAT-registered products has created a $60 billion market 
incentive for manufacturers to make greener products. This 
market for green electronics has attracted the participation of 
leading American manufacturers, including HP, Dell, Apple, most 
European and Asian industry leaders, and many small innovative 
manufacturers globally.
    Now that I have introduced you to EPEAT, I would like to 
urge this committee to do a few things that I think could make 
a huge difference.
    First--and Mr. Goss alluded to this--despite the fact that 
two Executive orders and the FAR require all agencies of the 
Federal Government to buy EPEAT-registered products, many 
Government contracts present catalogs of products to Federal 
purchasers that include many non-EPEAT-registered products, and 
they do not identify which products are EPEAT-registered, 
making it very difficult for purchasers to comply with Federal 
regulation.
    I urge Congress to require that Government contracts and 
contractors clearly identify EPEAT-registered electronics so 
that Federal purchasers can more easily comply with Federal 
purchase regulations.
    Second, the U.S. Government has for many years done a good 
job of using their own purchasing power to create demand for 
greener products, but this doesn't go far enough. Promoting 
green purchasing to the public based on sound, life cycle-based 
programs educates consumers on what they can do and strengthens 
demand for environmentally preferable products.
    EPEAT is the program vetted by the U.S. Government and used 
for its own purchasing of electronics. EPA should support and 
promote EPEAT and other sound green purchasing systems to the 
public.
    Third, Congress justifiably has interest in developing a 
national e-waste recycling program. We fully support that. It 
is a critical environmental need that can only be accomplished 
by regulation probably. However, recycling is fundamentally an 
end-of-the-pipe activity that recovers perhaps a few percent of 
the environmental investment in electronic products.
    To fully address the life cycle impact of electronics, we 
must address them earlier in the product life cycle. By 
specifying EPEAT, purchasers apply market pressure to change 
the design, manufacturing, and service practices of electronics 
makers globally and reduce impacts throughout the life cycle, 
including making products more easily and efficiently recycled. 
Again, if you buy greener electronics, you will be disposing of 
greener electronics, so buying greener electronics as defined 
by EPEAT should be recognized and supported as a necessary part 
of any long-term solution to e-waste.
    Finally, EPEAT was made possible through the support and 
involvement of EPA, Department of Energy, and other Federal 
agencies. EPEAT is a working example of an innovative and 
powerful new model of public/private partnership that is using 
market forces rather than regulation to drive better materials 
management practices throughout a complex supply chain.
    We urge Congress to increase support for EPEAT and similar 
programs.
    Thank you for this opportunity to testify before this body. 
I look forward to your continued and increased support for 
EPEAT. I would be happy to answer any questions.
    [The prepared statement of Mr. Omelchuck follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Watson. I would like to thank all the witnesses for 
your testimony.
    We are now going to move to the question period, and we 
will proceed under a 5-minute rule. I would like to first start 
with Mr. Biddle.
    With all the concerns about IT recycling operations we have 
heard about in the news, some people say it is actually better 
for the environment if we just warehouse the old IT products or 
even send them to landfills where there is likely to be some 
protection against the leaching of toxic components. This may 
seem illogical, but is there any truth to this statement?
    Mr. Biddle. Thank you. I think that is actually a good 
question, because I have heard similar sentiment before.
    I think from my oral testimony you probably surmised that I 
believe there is a lot of value to be recovered if it is done 
appropriately, and I think that is the key, that it be done 
appropriately and that the e-waste be handled by companies that 
have the technology and the knowledge to recycle these products 
appropriately.
    Let me just use one example that might highlight this 
issue. The European Union enacted what is called WEEE 
legislation--waste, electrical, and electronic legislation--a 
number of years ago, and it was primarily initially done to 
protect the environment, both their local environment and the 
environment of countries where their e-waste was also being 
exported.
    What they have found since--and they figured that this was 
going to be a costly enterprise to do this--what they have 
found since is that it didn't cost as much as they thought, 
and, in fact, sometimes it pays for itself, as we have heard. 
Some of these products can pay for themselves from the 
recycling or their reuse. And, second, what they found is that, 
more importantly, or just as importantly as protecting the 
environment, they are now recovering valuable resources that 
their manufacturers in Europe are using to make new products 
more competitively, more sustainably. So I hope that--does that 
answer your question?
    Ms. Watson. That alludes to it. Does the recycling industry 
have data regarding total amounts of e-waste generated or sent 
for reuse or recycled domestically or exported abroad?
    Mr. Biddle. There is a number of different figures out 
there that have been compiled by different organizations. In my 
oral testimony I alluded to some, and in my written testimony 
there is a little bit more data. The number that I used, again, 
is all electrical and electronic equipment by the EU 
definition, anything with a battery or a cord, and that is more 
than 20 million metric tons per year of e-waste estimated via 
North America. A good portion of that, of course, is in the 
United States. I don't have the particular figure for what 
percentage of that is the United States.
    Of that, EPA did a study that I also alluded to, about 17 
or 18 percent of e-waste is collected for recycling in the 
United States, but the e-waste that they looked at was just 
what I call the high-value e-waste, the most prominent e-waste, 
so these were computers and peripherals and cell phones. That 
stuff does have a much higher recycling rate for the reuse 
reasons we heard about and the inherent value in some of the 
materials in that particular type of question.
    So that over-estimates, I think, the recycling rate for all 
of electronics, and the majority of that, 18 percent, is 
shipped overseas, not recycled here in the United States.
    Ms. Watson. Mr. Goss, some experts say that it is important 
to design IT products to make them easier to recycle, for 
example, by using more modular construction and reducing the 
use of certain kinds of chemicals, and others say that this is 
not practical and it is more important to design more effective 
and environmentally friendly recycling processes like smart 
shredders that can separate the material.
    What do you think is the best approach, and what, other 
than funding, do you think Federal agencies can do to help in 
this regard?
    Mr. Goss. Thank you. On your first question here, I think 
our companies have demonstrated through their actual 
achievements here what they are able to do based on customer 
demand, based on competition, market competition, etc. As I 
noted in my testimony here, our member companies make 90 
percent of the 400-plus gold-rated EPEAT products here, so our 
companies are competing against one another and in the 
marketplace here, and, frankly, the Federal Government's 
support through the FAR, through the Executive order for EPEAT 
and Energy Star is a major driver here.
    So what our companies are demonstrating is that they can 
and will, in the absence of regulation, just based on 
competitive advantage here, design in these types of features. 
And, as Mr. Omelchuck has mentioned, EPEAT is a full life cycle 
assessment, going all the way through the design, through the 
active use of the equipment, through its beneficial reuse and 
appropriate recycling.
    In terms of the Federal Government, I think I will go back 
to a couple of the key points I made in my testimony here. The 
Federal Government has a major role to play in terms of helping 
to drive that market demand, in terms of making sure that EPEAT 
and Energy Star products are purchased at the levels as 
prescribed in the Executive order and in the FAR, and 
continuing to provide that market incentive to our companies to 
make these improvements.
    Ms. Watson. Thank you. We will go now to Mr. Bilbray, 
ranking member.
    Mr. Bilbray. Thank you, Madam Chair.
    Madam Chair, I would like to follow a different line of 
questioning here.
    Mike, we can talk about that there is a lot of economic 
opportunities for recycling, but it is not equal. I mean, you 
are willing to admit that there are portions of these products 
that are not going to be economically viable to recycle, right? 
But I think anyone who has worked with the waste streams will 
understand that doesn't mean in the future that material may 
not be very profitable to recycle.
    Wouldn't you agree that one of the things that we need to 
look at while we are talking about recycling is the concept of 
stockpiling or disposing or storing the other material that may 
not be today in isolation, because that is one of the things 
you get. You have it in isolation, you have it separated. Once 
you have it separated, that is a huge part, isn't it, of being 
able to make it recyclable for the future?
    Mr. Biddle. Again, another good question. I agree with your 
general statement that some things are more expensive to 
recycle than others, and I would allude again to my comment 
about the European Union, where they found that a surprising 
amount of stuff is now paying for itself to be recycled. I 
think one of the more problematic materials would be CRT glass, 
for example, finding a positive value from that, from cathode 
ray tubes, TVs, and the like.
    As far as storing the stuff, I am a little reluctant to go 
down that path because I think there is so much inherent value 
in the materials if the infrastructure were developed. It is a 
bit of a chicken and egg, and that is what the European Union 
found out. There are economies of scale associated with doing 
recycling and doing it economically, as well as doing it 
environmentally soundly, and now that the economies of scale 
have been built out in Europe and parts of Asia, these 
recyclers have found that it is actually quite profitable to 
recycle the majority of electronic waste that comes their way.
    Mr. Bilbray. But, to interrupt here, there is a chicken and 
egg thing here.
    Mr. Biddle. Yes.
    Mr. Bilbray. First of all, a lot of it may be on the 
political process, just the entire environmental political 
process of saying no, no, no. The fact is that if you are 
confronted with one of two options, recycle or site a disposal 
site, and make the siting of the disposal site compatible with 
future recycling, then you start creating an issue that there 
is more of a motivation to recycle because you can't just go 
down the cheaper throw-it-into-a-landfill option.
    Mr. Biddle. Right. I think you are absolutely on the right 
track. Let me just say three things would make it easier for us 
to recycle these things economically in the United States.
    The first is getting the stuff back. Clearly we have more 
of this stuff in the United States than any other country in 
the world, so I think that is a huge opportunity as much as it 
is a problem. And, just like in technology, getting fiber to 
your home or cable to your home, the last mile is the most 
expensive. Perhaps you are familiar with that concept.
    In recycling, it is just the opposite. It is the first mile 
that is the most expensive. Getting recyclables out of the 
hands of consumers has always been the most expensive part of 
the recycling equation. If that infrastructure develops for 
collecting this material in an effective way, most of the other 
process pays for itself. So the first issue to solve is how can 
we collect it effectively and efficiently. This is, again, 
something we can learn from countries in Europe and Asia.
    The second is--I think you have already alluded to it--make 
it easier for recyclers to develop their plants and stop 
throwing up so many barriers. Again, I will give you an 
example----
    Mr. Bilbray. Now, you are an example where you developed 
it. You are a company in California. You are in California, but 
you don't have one site in the United States?
    Mr. Biddle. No. Raised over $100 million from investors 
right here in the United States, gotten funding from the U.S. 
Government agencies to develop the technology more than 10 
years ago, and where are we exploiting that technology? We are 
exploiting it----
    Mr. Bilbray. Now, most people in Washington would say that 
you are one of those corporations that are just so mean 
spirited that you are creating jobs overseas and don't care 
about the Americans.
    Mr. Biddle. I am creating jobs overseas because that is 
where I can get my hands on the raw material. I can tell you 
there is no person in this country more frustrated than myself 
that I can't build plants here in the United States.
    Mr. Bilbray. What can we do to make it possible for you to 
do that?
    Mr. Biddle. Well, the first one is getting the raw material 
on the electronic side. On the second point, which again you 
have already alluded to, make it easier for recyclers to make 
the investment, because there is a risk. My investors demand of 
me that I show them a return on their money, and that has to do 
with risk base. If I can get my hands on materials in Europe 
and Asia, that lowers the risk, my investors are happy.
    Mr. Bilbray. But isn't a portion of that risk base is that 
when you go in there it is a whole lot different than saying I 
plan on going in and building a facility here.
    Mr. Biddle. Yes.
    Mr. Bilbray. The difference between going to an investor 
and saying I am planning on building a facility as opposed to I 
have a sited facility that is permitted and is ready to go, 
that is a huge, huge difference, isn't it?
    Mr. Biddle. Yes. Absolutely. And that is my point, too. 
Let's make it easier for recyclers to grow the infrastructure 
here in the United States, and the first one is getting the raw 
material, but second is making the permitting process easier. 
The permitting process was much easier for us in Asia and 
Europe and where we are building our second plant right now in 
the U.K., which will be the largest such plant in the world. We 
would like to duplicate that plant here in the United States, 
and we are ready to do it tomorrow. I can employ the funds 
tomorrow if we can get over some regulatory hurdles.
    This happens to do with automotive shredder residue, not 
the topic for this panel right here, but the point I can make 
with that, that material is already available in the United 
States. Ten billion pounds of it we put in landfill every year, 
already collected, already concentrated, and I can't build a 
plant to mine it like the plant we are building in the U.K. 
right now because of regulatory barriers, so I need some help 
on that.
    Finally, on the procurement part, I think the rest of the 
panel has talked better than I can on the procurement end. That 
helps recyclers to have a market for recycled materials.
    Thank you.
    Madam Chair, just an example as being in California, I 
served 6 years on the California Coastal Commission, and there 
are issues that sort of the push and pull of government 
regulation. We are always looking at pushing, but no pull. One 
of the things that the California Coastal Commission did that 
really has worked is, where you had communities that did not 
want to build hotels, visitor receiving facility, because the 
local pressure was we don't want those tourists in our town, we 
don't want this hotel in our neighborhood.
    But what finally happened was without the hotels people 
were renting out homes in neighborhoods, and people were so 
outraged about, wait a minute, I don't want people renting next 
to my house that are just going to be here for 2 weeks. I 
bought into a single family residential area. And the Coastal 
Commission finally said, OK, you can outlaw those short-term 
rentals, but only if you build an alternative, the hotel. Now 
you have communities that historically have blocked hotels 
being motivated to do the responsible thing.
    I would like to see us try to see how, as a policy, our 
environmental regulations can create that carrot and stick 
approach, that push and that pull.
    Thank you very much. I yield back.
    Ms. Watson. Thank you.
    Mr. Connolly.
    Mr. Connolly. Thank you, Madam Chairwoman.
    Just picking up on the last point, I think it would be a 
mistake to indicate that there is no recycling going on in the 
United States. There is metal recycling from electronic waste. 
I am aware of one plant in Pottstown, PA. I am aware of another 
plant in Arizona where we, in fact, are recycling and there is 
a market here, though the gentleman's point is correct that 
site location for such plants obviously is always a challenge. 
But it would be a mis-impression, I think, to suggest that none 
of that goes on in the United States, that all of it goes on 
overseas. That is not true.
    Mr. Biddle. I completely agree, and I'm sorry, I did not 
want leave that complete impression. I said there were 85,000 
jobs here in the United States.
    Mr. Bilbray. If the Congressman would yield, before you 
came there was that point that there is this activity; it is 
just that proportionately it is way off what we produce.
    Mr. Connolly. Of course. And some of it is, as you suggest, 
Mr. Bilbray, it is permitting, it is licensing. Sometimes with 
the best of intention for environmental rationales we actually 
are preventing the ability to do this kind of recycling and to 
get that market vibrant here in the United States.
    Let me begin, Madam Chairwoman, by congratulating Dell, in 
particular, for their leadership. I mean, it really is 
impressive that a company such as yours would step up to this 
issue, not ignore it, and take it under their wing as an 
important part of their corporate responsibility. I just say 
that as somebody coming from twenty years in the industry. I am 
impressed, and I thank you for your leadership.
    Mr. Casellas. Thank you, Congressman.
    Mr. Connolly. Let me ask this of our two Dell reps. Could 
you support and how might it work, from your point of view, 
legislation that would support the establishment of national 
regulations for e-waste take-back and recycling?
    Mr. Goss. Thank you, Congressman. Just to clarify, I work 
for ITI, the trade association that represents Dell, among 
several dozen other companies.
    Let me start by saying that about 4\1/2\ years ago, early 
2005, our industry came to Congress and asked Congress to 
consider national comprehensive electronics recycling 
legislation. At that time, only two States, California and 
Maine, had e-waste laws on the books, and our industry had a 
strong preference for a consistent Federal approach as opposed 
to a hodgepodge or a patchwork of State approaches. Well, in 
the absence of Federal action, over the last four-plus years we 
now have 20 States, Wisconsin being the latest this past week, 
plus the city of New York with their own distinct electronic 
recycling laws on the books.
    This has created quit a bit of confusion, additional costs 
for our member companies, consumer confusion in addition 
because not two States are alike. Some are similar in terms of 
their approaches, but they have different product scopes, 
different financing requirements, registration reporting, etc. 
I think everybody understands the picture here.
    We would still be very interested in having a discussion 
with this committee and with Congress about where we can go as 
a group of stakeholders, including the recyclers, the 
retailers, the NGO's, EPA, and other Government players here 
about how to try to bring a solution to this.
    I would also add that we have been working with Congressman 
Green and Congressman Thompson for well over a year on the 
specific bill that they mentioned in the first panel here, 
which has to do with controls on electronics exports.
    Two quick points I would like to make on that is we 
strongly support controls on the export of obsolete equipment 
going to non-OECD countries. That is a very legitimate issue 
and it is something that, as manufacturers, we would like to 
see resolved here.
    I would also add as a caveat that we want to make sure that 
we are allowed to continue with our beneficial product 
refurbishment programs. Some of our members export large 
amounts of used late model equipment for appropriate repair, 
refurbishment, and subsequent resale in the global commerce. 
That is a very environmentally beneficial outcome and we want 
to make sure we get the most resources and the most use out of 
those products, so we want to make sure that, while we have 
restrictions on export of obsolete products, that we still 
maintain some reasonable ability to move goods for proper 
refurbishment.
    Thank you.
    Mr. Connolly. And following up on that, if I may, Mr. Goss, 
does ITI support the idea of prohibiting exports of hazardous 
e-waste?
    Mr. Goss. We support controls on the export of obsolete 
material for recycling. I will point out that an absolute 
prohibition on the export of used products for recycling would 
actually create a regime, a U.S. regime where you can't, for 
instance, export a laptop at all, but you would still, under 
RCRA, be allowed to export a drum of hazardous waste to the 
same developing country under notice and consent. I think there 
needs to be some reasonable authority given to EPA to come up 
with some rules on when and where certain shipments could be 
made. But we do support controls on the export of obsolete 
equipment to countries that don't have the capacity to manage 
it safely.
    Mr. Connolly. OK. Great.
    And my final question, Madam Chairwoman, to Mr. Biddle, in 
your testimony you note that metal recyclers capture 90 percent 
of the metals collected and recycled in end-life automobiles. 
And you contrast that with sort of the sorry state of 5 to 10 
percent of the plastics. I wonder if you could expand on that a 
little bit, because one of the things that struck me, having 
done a little bit of work on the metals side, is that a niche 
market was created for the metal extraction and recycling of 
those metals on the metal market.
    Frankly, so long as the price of metals was relatively 
good, it makes for a viable recycling industry and market. I 
don't know that we have a similar analogous situation for 
plastics. What do we need to do to try to help spur the 
creation of such a secondary market?
    Mr. Biddle. First, I'd like to thank you for the question, 
because that question is near and dear to my heart, as you 
might imagine.
    First let me say on the metals side--and we work with the 
largest metal recyclers in the world. We know them very well 
and have worked with them for 15 years. If you look back at the 
history of metal recycling, steel was the first metal recycled 
because it is easy to recycle. All it takes is a magnet to 
separate steel from everything else. There was no such thing as 
a magnet for copper, aluminum, magnesium, and some of the other 
non-ferrous metals, the non-steel metals. So that material, up 
until about two decades or three decades ago, was not recovered 
in high volumes. It was hand picked, and much of it actually 
ended up in the waste stream 30 years ago.
    Technology came along to now separate those materials using 
color, density differences, electrical differences, magnetic 
property differences, and so forth, and now that material has 
an incredibly high recycling rate because the technology came 
along and, as you pointed out, the inherent value of the 
materials is there.
    Plastics on average, particularly from computer and 
electronic equipment, is on par on a price per weight basis or 
cost per weight basis with aluminum, so it is a valuable 
material. We know the recycle rates for aluminum are quite high 
because it is a valuable material. Plastics are roughly in the 
same ball park as far as value, and much more valuable than 
steel on a price per weight basis. So the material has inherent 
value; it is that the technology to sort all these materials 
from each other was not available, just like it was not for 
non-ferrous. That technology is now available, has been 
developed over the last decade, not just by our company but by 
other companies, and is now starting to be employed. So the 
technology barrier was probably the first barrier.
    The second has been the collection. Again, if I just focus 
on electrical and electronic equipment, we are building plants 
overseas quite a lot these days simply because we can get our 
hands on the byproducts from the electronics recyclers, which 
is predominantly mixed plastics, so our technology is being 
employed to do that. If that material was being collected here 
in the United States, I would be happy to build plants here in 
the United States, as would other recyclers.
    Ms. Watson. Thank you. Your time is up.
    Mr. Bilbray.
    Mr. Bilbray. Yes. I appreciate that. And I think that one 
of the things we don't talk about--we think of these in 
isolation--the whole issue of fossil fuels being phased out. 
This is a major part of fossil fuel use, at least oil, is into 
these plastics, so as those supplies drop the demand for 
recycling is going to go up.
    Mr. Littlehale, there is this issue that we are going to 
shift totally over, and that is the data security on this 
issue. You are sort of the expert on that on the reuse, the 
transport on there. What do you do to make sure of that 
security issue? Where are your safety valves in there, because 
you are actually picking up hardware, redesigning it, and 
reusing it, so there is this potential. How do you address that 
issue?
    Mr. Littlehale. We take a variety of steps, which start 
with giving the customer the instructions on how to data clear 
his or her device with the standards of the manufacturer, which 
usually are the recommended version. Once we take the device 
into our facility, what we do is we have a technician go 
through and hand data clear the device through the same 
specifications that the manufacturer recommends. We then use a 
service, which I would be happy to write more about later, 
which we plug in and sort of does a clean wipe, and then we--
for cell phones, for instance, which is the highest volume of 
what we use, for smart phones we wipe the operating system and 
then reinstall the operating system.
    This is one thing, data security in particular, that I 
think that, if manufacturers developed an easier way to data 
clear, these devices would be more reusable. That is something 
that would make the electronics greener in that sense because 
they would be easier to reuse.
    We use the highest standards that are available currently, 
and our constantly looking to improve.
    Mr. Bilbray. Now do you feel, once you go through that, 
that security is up to the level you would prefer, or do we 
need to continue to improve the ability to data clear?
    Mr. Littlehale. I think that is it up to the level that the 
manufacturers--it is the best that we can do, that the 
manufacturers give, and also the extra service that we pay for 
as a company that specializes in the data clearing, and there 
is security software that is Department of Defense certified, 
as well, that is out there and available, mostly for computers. 
Bigger computers we are actually not dealing with as much. We 
are more focused on sort of the handheld electronics, cell 
phones, MP3 players currently.
    But I do think that it could be better, only because it is 
a tedious process going through the hand wipe, going through 
the plugging and the wiping and the reinstalling and the data 
clearing, and if there was--you know BlackBerry actually, for 
instance, RIM Technologies is a leader in this field and is 
doing a pretty good job. It is about 5 minutes and the whole 
thing is wiped.
    Mr. Bilbray. Well, let me just say in the 1990's there were 
a lot of officials that wished they had your service. I know 
you weren't available, you were busy at grade school. But I 
want to thank you for that.
    I think that, in all fairness, when we talk about this we 
also have to remember that there is going to be some 
consultation with law enforcement. I'm sure that our law 
enforcement agencies have seen this as being a great tool, 
being able to get ``erased'' information. That obviously will 
be something that is dialogd into the formula.
    Thank you very much for having this hearing, Madam Chair.
    Ms. Watson. Thank you.
    The last two questions will go to Mr. Omelchuck and Mr. 
Casellas. I knew that bell would be heard.
    I just want to raise these issues and end up with you, Mr. 
Casellas. First, with Mr. Omelchuck, what are the EPEAT-listed 
products and why are they so limited? And let me just go down 
my list and you can answer in response. What is being done to 
add more products? What kind of Federal support was involved in 
the development and implementation of EPEAT? And does the 
Federal Government still need to be involved, or can expansion 
and improvement of EPEAT be done with only private funding from 
now on?
    And then if you will end up, Mr. Casellas, to what extent 
does the private sector regulate the safe disposal of used IT 
equipment, and are there any regulatory approaches proposed or 
enacted at the State level that would provide increased 
incentive for industry design for environment initiatives? And 
we will end with you.
    So, Mr. Omelchuck, if you could just combine all those 
questions into one response, we would appreciate it.
    Mr. Omelchuck. Thank you for your question, Madam Chair.
    I think your first question was why the limited number of 
products in EPEAT, and I would address that in two ways. The 
first is EPEAT covers a limited set of number of types of 
products today. It applies to laptops, desktops, and monitors. 
Those are the products that stakeholders chose to begin with 
because they are products purchased in volume by large 
institutional purchasers like the U.S. Federal Government, who 
is an important stakeholder in the process.
    Within that product set, I am not sure if you were focusing 
on product types or numbers of products within that product 
set.
    Ms. Watson. Both.
    Mr. Omelchuck. OK. So within laptops, desktops, and 
monitors, the products that we cover today, we have at 
testifying point 1,300-some products from 40-plus manufacturers 
that are registered. The key thing is I would say that the 
manufacturers choose which products to register. They present 
them to us. We don't go out and grab them from the 
manufacturers.
    And I think it is important to note that a manufacturer 
pays a fixed annual fee to participate in EPEAT, so all the 
leading manufacturers that have at least one product registered 
in EPEAT, which is all the recognized multi-nationals, it costs 
them not one penny additional to register additional products. 
So there is really only one reason why they don't EPEAT-
register the products that they haven't chosen to EPEAT-
register, and that is because they don't meet the green 
criteria.
    So why don't the leading manufacturers register more of 
their products is a better question addressed to them.
    What would it take to add more products? Let me touch on 
what would it take to add more product types first. 
Stakeholders have begun the process to develop the green 
standards for printer type products--that is printers, fax 
machines, copiers, that kind of product--and for televisions, 
that process is underway. EPEAT standards are developed by a 
broad range of stakeholders working in a public standards 
development process, so it is a long process. It is not five of 
us getting in a closet and dreaming up the criteria; it takes 
hundreds of people working through hundreds of meetings over a 
period of years to come to agreement, consensus across NGO's 
and manufacturers and others what the criteria are.
    So those are started. We have a product road map that 
includes servers and handheld cell phone products after that, 
so those products are kind of on the way.
    What would it take to add more products within the products 
we cover today? I think the key would be increased consumer 
awareness and consumer demand for green electronics. It is true 
that the majority of products registered in EPEAT are those 
sold to institutions, and that is because that is the market 
that requests them.
    As I said in my testimony, one of the things that EPA can 
do to increase the range of products is to promote EPEAT to the 
public. Today we are in a bit of the chicken and the egg 
situation, where manufacturers say they don't want to promote 
EPEAT to the public and they don't EPEAT-register their public 
products because the public doesn't recognize it. And, of 
course, until they do the public can't recognize it. There is 
nothing to recognize.
    So we are in a bit of the chicken and the egg situation in 
the marketing, and EPA and the Federal Government could break 
us out of that deadlock by simply promoting it to the public.
    Ms. Watson. OK.
    Mr. Omelchuck. You asked a couple more questions but I 
realize I am out of time.
    Ms. Watson. Yes, we are out of time, but I think we get the 
gist of it.
    I want to go to you, Mr. Casellas.
    Mr. Casellas. Thank you, Madam Chair. I will be brief.
    Fundamentally this is about good business, at least from 
Dell's perspective, and being a green business for us means we 
are going to be a successful business. So as we think about 
green technology we think about it strategically, and if we can 
get ahead of the curve we will be successful in the long term. 
That is why all of the efforts--when our chairman declared we 
will be the greenest technology company on the planet, it was 
sort of like President Kennedy saying we are going to get to 
the moon by a certain period of time. Now we have to work all 
of those partnerships, a lot of hard work to try to make it 
happen.
    Among the things you asked about were disposal, and we have 
some very high standards around disposal. We audit our 
recyclers, for example. I mentioned in my testimony about 
banning the export of non-working equipment. The idea is to set 
the highest standards and push toward them.
    You know, it is kind of like physical fitness. You reach a 
level and you don't stop, you have to push to the next level, 
one, because it is the right thing to do and it is good for 
you, and second because you know your competition is going to 
drive you to the next level in any event.
    In terms of the State level question you asked, I would say 
that we have been working with Congressman Green, as well, on 
some of the recycling laws at the State level. I think what we 
need is some incentives to make recycling more efficient, and I 
think the Federal Government, in particular, could help by 
creating further incentives for recycling.
    Ms. Watson. I want to thank all of you. You know, these are 
emerging fields, and I liken it to developing the H1N1 virus. 
People are complaining that there is not enough available. 
Well, they don't know the process that has to be done in the 
laboratory to grow what is necessary to put it in the 
inoculation and all. And as I was listening to you this 
morning, and now afternoon, we are trying to support you in the 
private sector, as well as the public sector, as you start to 
discover and develop and compete with each other. We are trying 
to do that in health care. Oh, I should never have gone there.
    But, anyway, we understand all the pieces and the parts 
that it takes to come up with good policy, so that is the 
reason why we started off with the two Members that were here 
with their bills. And we will then be amending their bills with 
some of the input we have today.
    I just want to say to all of you thank you for what you are 
doing. We hope that we can consult with you as we make policy, 
and if there are any new pieces of information that you think 
will help us, don't fail to contact us.
    With that, this hearing is adjourned. Thank you so much to 
all the witnesses.
    [Whereupon, at 12:08 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
